<html>
<title> - EXPANDING OPPORTUNITIES FOR GRADUATE STUDY AT HISPANIC SERVING INSTITUTIONS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
    EXPANDING OPPORTUNITIES FOR GRADUATE STUDY AT HISPANIC SERVING 
                             INSTITUTIONS

=======================================================================

                             FIELD HEARING

                               before the

                    SUBCOMMITTEE ON SELECT EDUCATION

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                     May 2, 2005 in Edinburg, Texas

                               __________

                           Serial No. 109-13

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
20-913                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Howard P. ``Buck'' McKeon,           Major R. Owens, New York
    California                       Donald M. Payne, New Jersey
Michael N. Castle, Delaware          Robert E. Andrews, New Jersey
Sam Johnson, Texas                   Robert C. Scott, Virginia
Mark E. Souder, Indiana              Lynn C. Woolsey, California
Charlie Norwood, Georgia             Ruben Hinojosa, Texas
Vernon J. Ehlers, Michigan           Carolyn McCarthy, New York
Judy Biggert, Illinois               John F. Tierney, Massachusetts
Todd Russell Platts, Pennsylvania    Ron Kind, Wisconsin
Patrick J. Tiberi, Ohio              Dennis J. Kucinich, Ohio
Ric Keller, Florida                  David Wu, Oregon
Tom Osborne, Nebraska                Rush D. Holt, New Jersey
Joe Wilson, South Carolina           Susan A. Davis, California
Jon C. Porter, Nevada                Betty McCollum, Minnesota
John Kline, Minnesota                Danny K. Davis, Illinois
Marilyn N. Musgrave, Colorado        Raul M. Grijalva, Arizona
Bob Inglis, South Carolina           Chris Van Hollen, Maryland
Cathy McMorris, Washington           Tim Ryan, Ohio
Kenny Marchant, Texas                Timothy H. Bishop, New York
Tom Price, Georgia                   John Barrow, Georgia
Luis G. Fortuno, Puerto Rico
Bobby Jindal, Louisiana
Charles W. Boustany, Jr., Louisiana
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON SELECT EDUCATION

                   PATRICK J. TIBERI, Ohio, Chairman

Cathy McMorris, Washington Vice      Ruben Hinojosa, Texas
    Chairman                         Danny K. Davis, Illinois
Mark E. Souder, Indiana              Chris Van Hollen, Maryland
Jon C. Porter, Nevada                Tim Ryan, Ohio
Bob Inglis, South Carolina           George Miller, California, ex 
Luis P. Fortuno, Puerto Rico             officio
John A. Boehner, Ohio, ex officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 2, 2005......................................     1

Statement of Members:
    Hinojosa, Hon. Ruben, Ranking Member, Subcommittee on Select 
      Education, Committee on Education and the Workforce........     3
        Prepared statement of....................................     4
        Chart submitted for the record...........................    36
    Tiberi, Hon. Patrick J., Chairman, Subcommittee on Select 
      Education, Committee on Education and the Workforce........     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Arciniega, Dr. Tomas, President Emeritus, California State 
      University Bakersfield, Valley Center, CA..................    22
        Prepared statement of....................................    25
    Cardenas, Dr. Blandina, President, The University of Texas-
      Pan American, Edinburg, TX.................................     7
        Prepared statement of....................................     9
    Chapa, Olga, Graduate Student, The University of Texas-Pan 
      American, Edinburg, TX.....................................    10
        Prepared statement of....................................    12
    Paredes, Dr. Raymund A., Commissioner, Texas Higher Education 
      Coordinating Board, Austin, TX.............................    14
        Prepared statement of....................................    16
    Rivera, Dr. Jose Jaime, President, University of the Sacred 
      Heart, San Juan, Puerto Rico...............................    17
        Prepared statement of....................................    19

Additional materials supplied:
    McMillin, Sue, President & CEO, Texas Guaranteed Student Loan 
      Corporation, Round Rock, TX, statement submitted for the 
      record.....................................................    32


    EXPANDING OPPORTUNITIES FOR GRADUATE STUDY AT HISPANIC SERVING 
                              INSTITUTIONS

                              ----------                              


                          Monday, May 2, 2005

                     U.S. House of Representatives

                    Subcommittee on Select Education

                Committee on Education and the Workforce

                              Edinburg, TX

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:30 p.m., in 
the International Room, International Trade and Technology 
Building, The University of Texas-Pan American, 1201 West 
University Drive, Edinburg, Texas, Hon. Patrick Tiberi 
[Chairman of the Subcommittee] Presiding.
    Present: Representatives Tiberi and Hinojosa.
    Staff Present: Alison Griffin, Professional Staff Member; 
Ricardo Martinez, Minority Legislative Assistant.
    Chairman Tiberi. A quorum being present, the Subcommittee 
on Select Education of the Committee on Education and the 
Workforce will come to order.

STATEMENT OF HON. PATRICK J. TIBERI, CHAIRMAN, SUBCOMMITTEE ON 
   SELECT EDUCATION, COMMITTEE ON EDUCATION AND THE WORKFORCE

    We are meeting today to hear testimony on expanding 
opportunities for graduate study at Hispanic Serving 
Institutions. My name is Pat Tiberi, Chairman of the Select 
Committee, Subcommittee on Education and the Workforce.
    I'd like to thank the University of Texas-Pan American for 
hosting this hearing today. I also want to thank Brett Mann--
Where's Brett? Brett? He's working--the executive director of 
the Office Center for Operations and Community Service, 
Division of External Affairs, with the University of Texas-Pan 
American, for picking me up at the airport. Thank you for 
sending an Ohioan, a former Ohioan, to pick me up.
    It is my pleasure to be here today. I appreciate the 
hospitality shown thus far. I am eager to hear from our 
witnesses.
    Before I begin, I ask for unanimous consent for the hearing 
record to remain open for 14 days to allow Members' statements 
and other extraneous material referenced during the hearing 
today to be submitted in the official hearing record.
    Without objection, so ordered.
    Welcome to our presenters here today. I'd like to 
especially thank my friend, my colleague, Congressman Hinojosa, 
for his work in organizing this field hearing, his staff as 
well. They've been terrific. I had the great pleasure of 
hosting Mr. Hinojosa at my alma mater, The Ohio State 
University, a few weeks back, and I'm honored to be here today 
in the 15th Congressional District of Texas that is so well 
represented, as all of you already know, by my friend and 
colleague. He is a wonderful member to work with, a dedicated 
Member of Congress, and I'm so pleased to be in his district.
    I'd also like to recognize again the University of Texas-
Pan American for hosting our field hearing today. It is truly a 
pleasure to be here at the university. Thank you very much.
    I have prepared a formal opening statement that I will ask 
be submitted to the record, but let me begin by saying that I 
believe that expanding educational opportunities for all 
students and students at Hispanic Serving Institutions is an 
extremely important topic and a timely one, as well.
    HSIs have improved access to higher education for Hispanics 
and disadvantaged students and are committed to providing 
academic excellence across our country.
    As I said earlier in a press conference, education is the 
great equalizer in our country. It can bridge social, economic, 
racial, geographic divides, like no other force. It can be the 
difference between an open door and a dead end. Nowhere is this 
more true than in higher education.
    In preparation for higher education reauthorization, we are 
here today to examine the programs and use of funds that are 
authorized under Title V, and to explore how we might increase 
opportunities at the graduate level. Minority serving 
institutions offer a unique contribution, not just to the 
students they serve, but to the communities and to the Nation 
as a whole.
    The Federal investment in these institutions of higher 
learning is significant and producing significant benefits.
    I'm pleased to have the opportunity today to learn more 
from our witnesses about how graduate studies at HSIs could 
further expand access to higher education for minority and low 
income students. This is an issue I look forward to examining 
as the Committee moves forward with reauthorization of the 
Higher Education Act.
    I'd like to thank our the distinguished panel of witnesses 
for their participation today. I know your time is very 
important to you. I look forward to your testimony.
    At this time I would like to yield to my colleague, the 
ranking member of the Subcommittee, Mr. Hinojosa, my 
distinguished colleague, for his comments and any other opening 
statements he might have.
    [The prepared statement of Chairman Tiberi follows:]

 Statement of Hon. Patrick J. Tiberi, Chairman, Subcommittee on Select 
          Education, Committee on Education and the Workforce

    Good afternoon. Welcome to all present for today's hearing, 
entitled ``Expanding Opportunities for Graduate Study at Hispanic 
Serving Institutions.'' First, I would like to especially thank my 
friend and colleague, Congressman Hinojosa, for his work in organizing 
this field hearing, and his staff as well. I had the great pleasure of 
hosting Mr. Hinojosa at my alma mater, The Ohio State University, some 
time ago, and I am honored to be here today in the 15th congressional 
district of Texas that is so well represented by a distinguished and 
dedicated Member of Congress.
    I would also like to recognize the University of Texas-Pan American 
for hosting our field hearing today. It is truly a pleasure to be here.
    Let me begin by saying that I believe expanding educational 
opportunities for students at Hispanic Serving Institutions is an 
extremely important and timely topic. There is no doubt that HSIs 
improve access to higher education for Hispanic and disadvantaged 
students, and are committed to providing academic excellence. HSIs 
enroll and graduate thousands of students each year, and enrollments at 
these institutions are climbing.
    A college education has long been viewed as a ticket to prosperity 
and the gateway to the American dream. Today, higher education is 
playing a more vital role than ever in shaping our nation's 
competitiveness. Before our very eyes, the manufacturing economy of the 
20th Century is being transformed into an economy in which a nation's 
fortunes may be more directly linked than ever to the knowledge and 
know-how of its workers. Parents, students and taxpayers are investing 
billions in higher education each year, and institutions must be 
accountable for ensuring that they're getting a quality return on that 
investment.
    In preparation for reauthorization, we are here today to examine 
the programs and use of funds that are authorized under Title V, and to 
explore how we might increase opportunities at the graduate level. 
Minority Serving Institutions offer unique contributions not just to 
the students they serve, but to their communities and to this nation as 
a whole. The federal investment in these institutions of higher 
learning is significant, and it is producing significant benefits.
    The reauthorization process offers Congress an opportunity to enact 
needed modifications to the programs under the Act and the rules that 
govern them, with the goal of building upon the programs that are 
working well. Continued federal support for HSIs reflects the great 
need for institutions of higher education to serve minority and low-
income populations. Today's knowledge-based economy underscores the 
importance of higher education. Education is the great equalizer in 
this nation. It can bridge social, economic, racial, and geographic 
divides like no other force. It can mean the difference between an open 
door and a dead end. Nowhere is this more true than in higher 
education.
    I'm pleased to have the opportunity today to learn more about how 
graduate studies at HSIs could further expand access to higher 
education for minority and low-income students. This is an issue I look 
forward to examining as the committee moves forward with 
reauthorization of the Higher Education Act.
    I would like to thank our distinguished panel of witnesses for 
their participation today. I look forward to your testimony.
    At this time I would like to yield to my colleague, Ranking Member 
of the subcommittee, Mr. Hinojosa, for any comments he may have.
                                 ______
                                 

STATEMENT OF HON. RUBEN HINOJOSA, RANKING MEMBER, SUBCOMMITTEE 
 ON SELECT EDUCATION, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Mr. Hinojosa. Thank you, Mr. Chairman. I am very pleased to 
host the Select Education Subcommittee in the 15th 
Congressional District of Texas. Thank you, Chairman Tiberi, 
for agreeing to hold this hearing on a topic of vital 
importance to my community and to our nation, expanding 
graduate opportunities at Hispanic Serving Institutions, which 
I will refer to as HSIs.
    I would also like to thank the University of Texas-Pan 
American and its president, Dr. Blandina ``Blandie'' Cardenas, 
for hosting us. You represent the very best of our community 
and what it has to offer.
    Major leaks in the pipeline have put Hispanic Americans at 
the bottom of the educational attainment ladder. We will not 
see overall sustained improvement if we just focus on discrete 
points at the front end of the pipeline. Our nation's HSIs are 
uniquely poised to address this great need. Between 1991 and 
2000, the number of Hispanic students earning master's degrees 
at HSIs grew 136 percent. The number receiving doctor's degrees 
grew by 85 percent. And the number earning first professional 
degrees grew by 47 percent.
    Additionally, strengthening HSIs not only promotes access 
and degree attainment for Hispanics, but also builds the 
capacity and strengthens the economic development of the 
communities that are home to these institutions. It is time for 
a similar investment in graduate education at HSIs. As the 
109th Congress considers the reauthorization of the Higher 
Education Act, the timing is perfect, as the Chairman said 
earlier this afternoon.
    The timing is perfect to expand the Federal support for 
HSIs to post-baccalaureate programs. That is why I have 
introduced H.R. 761, the Next Generation Hispanic Serving 
Institutions Act, to establish a long overdue graduate program 
for these institutions. This legislation will establish a 
competitive grant program for HSIs that offer advanced degrees 
to increase graduate opportunities for Hispanics and to expand 
and enhance the post-baccalaureate offerings at HSIs.
    In conclusion, Mr. Chairman, I want to say that grants will 
support graduate fellowships and support services for graduate 
students, facilities improvement, faculty development, 
technology and distance education, and collaborative 
arrangements with other institutions. This legislation has 
broad bipartisan support, with more than 113 cosponsors, both 
Democrats and Republicans, and yes, one independent.
    A Federal focus on advanced degrees in the Hispanic 
community will help us attain the educational levels needed to 
meet our knowledge, economic--excuse me--to mete out knowledge, 
economy-based workforce needs. We must seize this opportunity. 
Our future depends on it.
    I thank all the witnesses for joining us this afternoon, 
and I'm looking forward to your testimony.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    [The prepared statement of Mr. Hinojosa follows:]

   Statement of Hon. Ruben Hinojosa, Ranking Member, Subcommittee on 
       Select Education, Committee on Education and the Workforce

    I am very pleased to host the Select Education Subcommittee in the 
15th Congressional district of Texas. Thank you, Mr. Chairman for 
holding this hearing on a topic of vital importance to my community and 
the nation: Expanding Graduate Opportunities at Hispanic-Serving 
Institutions.
    I would also like to thank the University of Texas Pan American and 
its President Dr. Blandina ``Bambi'' Cardenas for hosting us. You 
represent the very best our community has to offer.
    Major leaks in the pipeline have put Hispanic Americans at the 
bottom of the educational attainment ladder. Only 52 percent of 
Hispanic adults over the age of 25 have completed high school, compared 
to 80 percent nationally. Only 10 percent of Hispanic adults have 
attained a bachelor's degree, and less than four percent have achieved 
an advanced degree. In the general population over 24 percent of adults 
have bachelor's degrees and nearly 9 percent, advanced degrees. Not 
until the 1996-97 academic year did Hispanics break the 1,000 mark in 
doctorates awarded, of the 44,780 doctorate degrees awarded for the 
1999-2000 academic year, only 1,291 went to Hispanics. We will not see 
overall, sustained improvement if we just focus on discrete points at 
the front end of the pipeline.
    Our nation's Hispanic-Serving Institutions (HSIs) are uniquely 
poised to address this need. Between 1991 and 2000, the number of 
Hispanic students earning master's degrees at HSIs grew 136 percent, 
the number receiving doctor's degrees grew by 85 percent, and the 
number earning first-professional degrees grew by 47 percent.
    HSIs, established in the 1992 amendments to the Higher Education 
Act, are those degree-granting, nonprofit institutions that serve a 
high proportion of needy students and have at least a 25 percent full-
time equivalent enrollment of Hispanic students. Through a competitive 
grant program authorized under Title V of the Act, HSIs receive federal 
support to build capacity to better meet the needs of low-income and 
Hispanic students, primarily at the undergraduate level.
    The federal investment in HSIs, which began with $12 million in 
1995 and has increased to nearly $95 million for 2005, has clearly paid 
off. Between the years 1990- 1999, the growth in enrollment at these 
institutions was double that of all institutions nationally. During 
that same period the number of degrees awarded by HSIs grew by 36 
percent, compared to 13 percent for all other institutions, with the 
number of Hispanic students receiving degrees increasing by 95 percent. 
Additionally, strengthening HSIs, not only promotes access and degree 
attainment for Hispanics, but also builds the capacity and strengthens 
the economic development of the communities that are home to these 
institutions.
    It is time for a similar investment in graduate education at HSIs. 
As the 109th Congress considers the reauthorization of the Higher 
Education Act, the timing is perfect to expand the federal support for 
HSIs to post baccalaureate programs. That is why I have introduced H.R. 
761, the Next Generation Hispanic-Serving Institutions Act to establish 
a long overdue graduate program for these institutions
    This legislation will establish a competitive grant program for 
HSIs that offer advanced degrees to increase graduate opportunities for 
Hispanics and to expand and enhance the post-baccalaureate offerings at 
HSIs. Grants will support graduate fellowships and support services for 
graduate students, facilities improvement, faculty development, 
technology and distance education, and collaborative arrangements with 
other institutions. This legislation has broad, bipartisan support with 
113 cosponsors--both Democrats and Republicans.
    A federal focus on advanced degrees in the Hispanic community will 
help us attain the educational levels needed to meet our knowledge-
economy based workforce needs. We must seize this opportunity. Our 
future depends on it.
    I thank all of the witnesses for joining us this afternoon, and I 
am looking forward to your testimony.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Chairman Tiberi. Thank you. There's--thank you, Mr. 
Hinojosa.
    There's one particular witness that I'm going to recognize 
my colleague to introduce, but I must say that ever since we 
talked about having this hearing, he's been bragging about her, 
and I'd just like to thank her again for hosting us, before Mr. 
Hinojosa provides the formal introduction, but I've got to tell 
you, he's really built this up, so I'm really looking forward 
to it at this point.
    With that, I yield to my friend from Texas for the first 
introduction.
    Mr. Hinojosa. When I was telling the Chairman a little bit 
about our hosting president, he says, ``You're making her sound 
like she walks on water.'' I said, ``She does.''
    It's my honor to introduce a woman whom I admire greatly, 
my friend, Dr. Blandina Cardenas.
    Dr. Cardenas is the seventh president of the University of 
Texas-Pan American and the first woman to lead the institution 
in its 77-year history. Prior to coming to UTPA, Dr. Cardenas 
was the dean of the college of education and a professor of 
educational leadership at the University of Texas at San 
Antonio.
    Dr. Cardenas has an impressive history of educational 
leadership and community service. She has served as the 
chairperson of the Board of Trustees of the Educational Testing 
Service, a founding member of the Board of the Fundacion 
Soledavidad Mexicana-Americana, as a member of the Board of the 
American Association of Higher Education, and is a leader of 
numerous state and local organizations.
    A native Texan, Cardenas received her bachelor of 
journalism degree from the University of Texas at Austin, and 
her doctorate in education administration from the University 
of Massachusetts at Amherst.
    We are thrilled to have Dr. Cardenas back in South Texas 
leading this great institution. I thank her for the warm Texas 
hospitality that she has--she and her staff have shown Chairman 
Tiberi, my staff, and me, and I am looking forward to her 
testimony.
    Chairman Tiberi. Let me introduce the rest of the panel, 
and then we'll begin. Thank you, Mr. Hinojosa.
    Our next witness today will be Ms. Olga Chapa.
    And let me apologize in advance if I mispronounce anybody's 
name. I get mine mispronounced every day, as well, so--
``Chapa.'' Thank you, thank you.
    Ms. Chapa is a Ph.D. Candidate in business administration 
with a concentration in international business at the 
University of Texas-Pan American. Her current area of focus 
includes the intellectual property rights of American investors 
in China, cultural influence on consumer complaint behaviors 
among the U.S. Mexican border, and the effects of stress among 
emergency response personnel.
    She was previously an intelligence analyst in the United 
States Army, and the director and owner of the Montessori 
Development Center.
    Thank you for being here.
    Ms. Chapa. Thank you so much.
    Chairman Tiberi. Next witness, Dr. Raymund--``Parades''.
    Dr. Paredes. Parades.
    Chairman Tiberi. ``Parades.'' Thank you.
    Dr. Parades is the Commissioner of Higher Education at the 
Texas Higher Education Coordinating Board. His past experiences 
include serving as Vice President for Programs in the Hispanic 
Scholarship Fund, Director of Creativity and Culture at the 
Rockefeller Foundation, Vice Chancellor for Academic 
Development at the University of California-Los Angeles.
    Over the course of his career, Dr. Parades has been 
recognized numerous times for his expertise in multiethnic 
education, development of educational standards, and the impact 
of demographic changes on American culture and education.
    Thank you for being with us today.
    Dr. Jose Jaime Rivera; Dr. Rivera is the President of the 
University of Sacred Heart in San Juan, Puerto Rico. As a 
recognized leader in higher education, Dr. Rivera has served as 
a consultant in the United States and Puerto Rico and 
throughout Central and South America. In 2002 he was recognized 
as the Educator of the Year by the Third International Exchange 
of Education and Thought for his development of a distance 
education model for the Hispanic community and his initiative 
to provide expanded student exchange opportunities for Puerto 
Rican students.
    Thank you for coming today.
    And our final witness, Dr. Tomas Arciniega--pretty close.
    Dr. Arciniega. Close enough, thank you.
    Chairman Tiberi. The doctor is President Emeritus of 
California State University-Bakersfield. He served as president 
of the institution for 21 years, from 1983 to 2004. He is a 
recognized leader in the fields of multicultural education and 
institutional development and change, and has been recognized 
for his achievements by numerous professional associations. 
He's also served on the boards of several institutions and 
foundations, and as a Presidential appointee to the National 
Coalition on Education Research.
    Thank you for coming today.
    Before the panel begins, I would like to ask each of our 
witnesses today to limit their statements to around 5 minutes. 
Your entire written testimony will be included in the official 
hearing report, which will be distributed to the members of the 
Committee, the full Subcommittee and staff.
    With that, we will begin our testimony. After everyone's 
testimony is complete, then we will begin a round of 
questioning, and we'll have a couple of rounds of questioning, 
and, depending on what my colleague thinks, maybe even a third 
round of questioning.
    But it is really, really great to be here again, and let's 
not waste any more time.
    Dr. Cardenas.

 STATEMENT OF DR. BLANDINA CARDENAS, PRESIDENT, THE UNIVERSITY 
              OF TEXAS-PAN AMERICAN, EDINBURG, TX

    Dr. Cardenas. Thank you, Mr. Chairman. Chairman Tiberi, 
Congressman Hinojosa, on behalf of the students, staff and 
faculty of the University of Texas-Pan American, I am pleased 
to extend a heartfelt South Texas welcome, bienvenidos, to our 
beautiful Valley and to this campus. Thank you for the 
opportunity to address this Committee on a matter which I 
consider to be of great national importance. I will submit my 
testimony for the record.
    I speak to you not only from my perspective as president of 
this university, but I speak to you from a perspective of 
someone who spent the last 30 years focused on improving 
educational opportunities for Hispanic students and all 
students who do not have access to that educational 
opportunity.
    I've always done it from two perspectives: One, because I 
think that the human capital, the human potential that is in 
every child, should be developed, but also because I firmly 
belief that our nation, and in particular our state, require 
the development of a critical mass of people who are trained, 
credentialed, and prepared to lead and to solve the very real 
problems that face our nation, as well as to build on the 
assets that are in all of our communities.
    As I thought about this testimony, it occurred to me that 
it was important for you, Mr. Chairman, and Congressman 
Hinojosa, to understand the historical perspective; that is, 
what brings us to this point.
    When Lyndon Johnson signed the Elementary and Secondary 
Education Act, he signed it in Cotulla, Texas, where he had 
taught in a one-room Mexican schoolhouse, segregated Mexican 
schoolhouse. When he signed the legislation in 1965, that one-
room Mexican schoolhouse was still operating.
    Hispanics in states like Texas and others did experience 
segregated education until the '60's, and we now have de facto 
segregated education in many parts, and particularly in our 
urban centers. We are characterized because of the demographics 
of this part of the state. Many of our students go to school 
exclusively with other Latino children.
    That segregation diminished significantly, for other 
reasons that we'll talk about later, the high school completion 
of Hispanic students.
    When it came to a university experience, Hispanics, at 
least in this part of the country, had very little access to 
higher education. You could count the numbers of students from 
any community who managed to go to college. It wasn't until the 
GI bill that those numbers began to expand after World War II, 
and then it wasn't until the major improvement in higher 
education legislation that we saw those numbers increase, with 
the Pell Grant and others.
    But unlike other communities in our country, we did not 
have access to, if you would, national-origin based 
institutions of higher education. We didn't have access to 
mainstream institutions. We also didn't have access to 
segregated institutions in higher education. So our numbers, 
the numbers of college educated people that were produced, and 
in particular the numbers of people prepared to be faculty in 
institutions of higher education, was very, very low.
    This began to change somewhat as resources were made 
available to Hispanic Serving Institutions as a result of the 
work of your Committee.
    As these Hispanic Serving Institutions began to form their 
programs and advocate, through legal and other means, the 
urgency to create powerful graduate programs became very clear.
    The problem that we face in Hispanic Serving Institutions 
by and large across this country is that our students are still 
coming from a predominantly low income base, so we have to keep 
tuition low. The University of Texas-Pan American and the 
University of Texas-Brownsville charge the lowest tuition of 
any institutions in the UT system by a substantial margin. 
We're trying to keep tuition low so that we can give more 
students access to a baccalaureate education, and that means 
that we have few resources available to invest both in 
fellowships and program development and other--and in research, 
for that matter, that would allows us to grow our graduate 
programs.
    Moreover, it becomes difficult for us to recruit faculty. 
Young faculty coming out of our research run institutions want 
to go to schools where there's a doctoral program, where 
there's an abundance of research fellowships that they can do 
their research--with whom they can do their research. So we're 
caught in a bind.
    The other impact of that bind is that because we don't have 
the graduate resources, we don't have the doctoral programs, it 
becomes harder for us to access the very substantial Federal 
funds that go to research universities to create the solutions, 
if you would, to problems in diabetes, in schooling, in 
whatever. So we're caught in a bind. Basically, we get less 
because we have access to less.
    This legislation can make a marked difference in the lives 
of students and, more importantly, in the creative and problem-
solving capacity of this nation.
    Thank you.
    [The prepared statement of Dr. Cardenas follows:]

Statement of Dr. Blandina Cardenas, President, The University of Texas-
                       Pan American, Edinburg, TX

    Mr. Chairman Tiberi, Congressman Hinojosa, (any other members of 
the Committee who are present), on behalf of the students, staff and 
faculty of The University of Texas Pan-American, I am pleased to extend 
a heartfelt South Texas welcome, Bienvenida, to our beautiful Valley 
and this campus. Thank you for the opportunity to address this 
committee on a matter of great national importance and for your 
leadership in engaging the significant national challenge of graduate 
education for Hispanics.
    I speak to you not only from my perspective as President of this 
University that leads the nation in the graduation of Mexican-Americans 
in bilingual education and ranks fourth in the nation in master's 
degrees awarded to Hispanics, but also from the perspective of almost 
thirty-five years of engagement at the local, state and national level 
in efforts to educate the critical mass of Hispanic students so 
necessary to the long-term economic, civic and cultural well-being of 
our beloved nation.
    Over the course of your examination of this issue, you will be 
presented with extensive data and analysis of the unacceptably low 
rates of Hispanic participation and success in graduate education. 
Among other statistics you will hear are that Hispanic graduate 
enrollment in the Biological Sciences is only 3 percent, in Engineering 
only 4 percent and 6 percent in the Health Sciences. While these rates 
appear to be improving, the rate of improvement is inadequate to meet 
this state's and the nation's requirements. Improving the rate of 
graduate enrollment and completion for any group is a slow and lengthy 
process. I believe it urgent that we intervene to accelerate that rate 
of participation and completion consistent with the accelerated 
demographic change that is occurring throughout the nation.
    In a recent Supreme Court decision on diversity on college 
campuses, Justice Sandra Day O Connor established as a national 
expectation that we might reach, within 25 years, a time when 
extraordinary consideration for diversity might not be necessary. It is 
a goal whose achievement is deeply desired by those who, like me, 
advocate in favor of diversity strategies. But the goal will not be 
achieved unless we have both the push from the Pre K-12 system and the 
pull from higher education institutions in all disciplines and at the 
undergraduate, masters and doctoral levels.
    For Hispanic Serving Institutions, like UTPA, the ability to pull 
is hampered by a lack of funds at the institutional level and at the 
student level. UTPA will grow more than any other institution in Texas 
if we keep college affordable and provide substantial financial aid. At 
UTPA, we serve 4,658 students who come from homes with a total family 
income less than $20,000. Fifty percent of our students are Pell Grant 
eligible. Eighty-seven percent are eligible for financial aid. Our 
students come from the poorest families in the nation. Even with low 
tuition and financial aid, they work one or two jobs--and they have the 
lowest loan default rate in the State of Texas, (1.1) percent. By the 
same token, we project that any growth in student population will not 
come from students who are more affluent or more privileged, it will 
come from students who are less affluent, who will have greater needs.
    Our graduates go to work rather than pursue expensive graduate and 
professional educations because they are driven by the noblest of 
family values. They choose to help their families and perhaps help fund 
younger brothers and sisters' undergraduate education.
    UTPA finds itself in the same position as its students. We are 
faced with the choice of raising tuition and investing in graduate 
education or keeping tuition low and investing in undergraduate 
education so that we can have more of our young people receive 
bachelor's degrees.
    Most HSI's lack the financial base to provide adequate 
institutional support for graduate education. The policy dilemma for 
the state and nation is that if you want to increase the number of 
Hispanics with masters and doctoral degrees, you will have to go to 
Hispanic Serving Institutions. As we say in Texas ``if you want to 
fish, you must go where the fish are.''
    Increasing the number of Hispanics in graduate education is 
imperative to business, industry, medicine and education. Hispanics 
with master's degrees will be required to lead a diverse work force and 
create new products and product delivery systems for a diverse national 
market and for competitiveness in the global market. Hispanics with 
doctoral degrees must be available in sufficient numbers to serve the 
teaching and research needs of our colleges and universities and 
research organizations in the private and public sector. I believe that 
Hispanics with post-baccalaureate preparation will bring significant 
added value to the creative and problem-solving enterprise--not in 
spite of the less privileged backgrounds, but because of it.
    Academic institutions, in particular, have a high stake in the 
production of increased numbers of Hispanic doctorates. Academics are 
almost always produced through mentoring. Something or someone has to 
make the potential scholar believe that he or she too, can become a 
teacher and a researcher. When I received my doctorate in 1974, there 
were less than a dozen Mexican-American women with doctorates in other 
than Romance Languages. When I stopped counting some years ago, there 
were more than 150 Latina women who had worked for me, requested my 
mentorship, or told me that they had decided to pursue a doctorate 
because they connected to my achievement. Hispanic faculty can be a 
magnet for Hispanic student interest in a discipline. Particularly in 
fields not traditionally sought by young Hispanics, one dynamic 
Hispanic Assistant Professor can boost Hispanic majors in that field 
almost overnight. But the demand for Hispanic faculty is rising sharply 
as Hispanic college enrollments increase at the same time as the 
overall demand in most fields far outpaces the supply.
    H.R. 761 holds much promise for fulfilling the national need to 
increase the number of Serving Institutions to build the master's 
program enrollments and support doctoral programs in areas of 
excellence. It will enable HSI's to collaborate on a more equal footing 
with institutions with greater graduate capacity. It will help to raise 
the aspirations of Title V students and the institutions that serve 
them. It represents a logical extension to the success and the promise 
of existing Title V provisions.
                                 ______
                                 
    Chairman Tiberi. Thank you. Thank you very much.
    Mr. Hinojosa. Mr. Chairman, could we ask the presenters to 
bring the microphone a little closer to you, to be sure that 
everything at the back can hear.
    Chairman Tiberi. Very good suggestion. I was mesmerized by 
the testimony and was listening. That was very good testimony, 
by the way.
    Thank you for bringing it closer to you so everyone in the 
back can hear.
    Ms. Chapa.

 STATEMENT OF OLGA CHAPA, GRADUATE STUDENT, THE UNIVERSITY OF 
                TEXAS-PAN AMERICAN, EDINBURG, TX

    Ms. Chapa. Good afternoon, and thank you for allowing me to 
present this testimony to you today.
    Chairman Tiberi. Thank you.
    Ms. Chapa. Thank you. My name is Olga Chapa and I'm 
presently enrolled at the college of business. I have attended 
the graduate program for 5 years now. I stand before you as a 
representative for both the master's and doctoral students of 
the college of business, and I can personally testify this day 
that the main factor that restrains our ability to begin and to 
finish our graduate students--studies, pardon me--is the lack 
of funding.
    We're all familiar with the cost of obtaining an education. 
Many of us, myself included, earned our bachelor's degree 
attending the university part time because of financial 
restraints. It took me 9 years personally, and I am not alone.
    Some of us returned to earn a graduate degree, and taking a 
course here or there, repeating the same pattern as we did when 
we earned our bachelor's. And one of the things I noticed was 
the small number of Hispanic students along with me, but that 
was not a very big--since, like I said, scholarships, stipends, 
grants, are very, very limited, and we have to compete with 
what exists in most of these programs with undergraduate 
students, so of course there was no surprise.
    It's not an unwillingness to work, either. Master students 
work 20 hours a week to earn their stipend, and we, as doctoral 
students, have to do the same. We're more than willing to give 
that part of us to our community and our university.
    Graduate students require a large amount of time in order 
to read and also to conduct research, and therefore we cannot 
give more than 20 hours in order to meet our financial 
obligations. So we have to request today to please invest in us 
and give us other graduate means so that we may finish and 
accomplish this goal.
    One thing I hear that's common today and one thing that 
concerns us very much is this gap that's being created. It is 
predicted that one in every four Americans will be of Hispanic 
decent by the year 2050. If the ratio continues as it is of our 
graduate accomplishments, then that means that one quarter of 
our nation will be under-educated, and this is very dangerous, 
as each and every one of you has stated thus far, because not 
only do we compete here in our nation, but we compete globally, 
so this is of great concern to us and we want to help you 
address this issue.
    So how can we do that? Well, we certainly have the people. 
This institute has the people, and we have the commitment. You 
have our commitment and our willingness to work hard and do 
anything it takes to accomplish our goal to increase those 
numbers, not just for our community, but for our nation, as has 
been stated time and time again today.
    The low Hispanic enrollment in the graduate students is not 
only due to the lack of funding. Many students want to attend 
but aren't, or are not qualified with the requirements 
necessary to be accepted into a graduate program, so we're in 
dire need of programs to address that issue, as well, to create 
a jump start program, if you will, for those within our 
communities and within our Nation that need that jump start in 
order to qualify for these graduate programs.
    We desperately need you to invest in us. We're committed to 
you to make a difference, and we're committed to our country to 
help make a difference, especially in the bleak statistics of 
the Hispanic ethnic group, but we cannot do it alone any 
longer. We need your help. We have overcome great hurdles, but 
it is at a fork in our road that we are unable to continue at 
times, and that increases the number of what we call dropping 
out. We need increased funding opportunities. Anything you can 
do for us will be greatly appreciated and utilized.
    Speaking of research, at the college of business we are 
encouraged to perform research, and we've come up with some 
ground-breaking ideas and new added theories to existing 
literature, and some of us have even had the honor of 
publishing, but we cannot do this without research funding, so 
there's always a constant block here, there, on and off, that 
we're not able to continue helping in--and create a more 
research-oriented facility, as is the strategy of Dr. Cardenas 
and this structure.
    We're pleading with our government, do not leave any adult 
behind, either.
    Thank you.
    Chairman Tiberi. Thank you.
    [The prepared statement of Ms. Chapa follows:]

Statement of Olga Chapa, Graduate Student, The University of Texas-Pan 
                         American, Edinburg, TX

    My name is Olga Chapa. I am a 45-year-old Hispanic female from the 
Rio Grande Valley. My academic history as a student at the University 
of Texas-Pan American (UTPA) has peaked, and I am now a doctoral 
student. In the fall of 2005, I should present my doctoral 
comprehensive and oral exams. My graduate studies began in the fall of 
2000. Personally, during my MBA program, the only resources available 
through student financial aid programs were student loans. I would not 
have been able to continue my education unless I obtained private 
financing. I worked and studied diligently to obtain acceptance in the 
doctoral program at UTPA, College of Business Administration, but the 
continuation of my studies, as well as other graduate students in the 
same position, is not certain due to the lack of funding.
    The reason I stand before you is to act as a representative member 
of the Graduate Students at the UTPA to inform the Committee on 
Education and the Workforce of the struggle Graduate Students face to 
complete their education. As graduate students, most of us are of an 
older age group, therefore, have family and other responsibilities that 
hinder our ability to either begin graduate studies or complete the 
degree plans.
    I have two examples to share with the committee today that confirm 
that the main obstacle we face is financial. First, I have been 
privileged to teach undergraduate level courses. I make it a point to 
emphasize the importance of the students' continued education. I 
believe these students will not only better their lives financially and 
intellectually, but improve our representation as Hispanics in the 
United States (US). Some students are not interested, but many of them 
state that they cannot afford to continue. Their families are 
financially struggling with them as they earn a Bachelors degree, and 
their graduation seems impossible. Second, within my experience as the 
director of the child care center for 21 years, I met approximately 
2,000 sets of parents. Due to the demographics of the area, 98-99 
percent of the parents we served were of Hispanic origin. Out of the 
2,000 parents approximately one-half had some form of formal education. 
Only a handful of those parents continued with their post baccalaureate 
degrees. Their primary reason was the lack of financial recourses.
    Our resources as doctoral students are extremely limited. During 
the fall and spring semesters, we work as research assistants providing 
20 hours a week for a professor. Our stipend is $15,000 a year without 
insurance coverage. Most other graduate programs are able to provide 
more funding and insurance. If there is funding, our stipend is 
extended throughout the summer sessions. The lack of funding creates 
dire financial difficulties, because we are unsure whether we will have 
funding to support our families during the summer months or need to 
find employment elsewhere. For example, graduate students scheduled to 
take exams during the fall 2005 period are uncertain of the probability 
of accomplishing this task. The summer term, in addition to acting as 
an assistant to a professor, should ideally be used to study for the 
comprehensive examinations. The exams are comprehensive in nature and 
cover material studied throughout a three-year period. Unfortunately, 
the funding that is available is on a first come, first serve basis and 
is limited due to budget restraints. Without sufficient funding, we may 
have to sacrifice our studies in order to support our families during 
the summer. We have met the class requirements and student loans and 
scholarships are not available. This will delay preparations for 
examinations. As you can witness, the lack of financial resources are 
what hinders our abilities to obtain a post baccalaureate degree and 
ultimately this will result in some graduate students faced with the 
probability of ``dropping out''.
    Although, the University is available, the programs are in place, 
the professors and staff are qualified, and the Hispanic students are 
enrolled, our ability to complete our studies and achieve our graduate 
status is hindered. Hispanics make up approximately 89 percent of the 
UTPA population, which consists of 13,082 Hispanic undergraduate 
students and 2,242 graduate students. Currently, 1,731 Hispanic 
graduate students are enrolled in UTPA. Approximately 1,200 are female. 
If we consider the 13,082 undergraduate students as an example, only 13 
percent of them would return to earn a graduate degree.
    According to the U.S. Census, one in every four Americans will be 
of Hispanic origin by the year 2050. The National Center of Education 
Statistics reports that as of 1999, Hispanics earned only four percent 
of the master's degrees, and only three percent of the PhD degrees 
issued in the U.S. Ten percent of the college enrollment in the U.S. 
are Hispanic, yet only three percent are instructional faculty. We must 
increase our representation.
    Our representation in the area of post baccalaureate degrees 
remains low. Why would this be important? It is extremely important 
because the Hispanic children and young adults are not exposed to role 
models that have accomplished the task of furthering their education. 
We can create a norm, common characteristics that Hispanic children and 
young adults can emulate to increase our representation.
    In addition to increasing our representation, the growth of Hidalgo 
County requires qualified individuals in areas such as business, 
education, engineering, and so forth to meet the needs of expansion. 
Hidalgo County is part of a border area separating Mexico and the U.S. 
This region is rich with businesses. All types of organizations have 
expanded, including the retail and the maquila industries that are 
predicted to continue expanding. This type of growth requires 
individuals with skills and education to fulfill job openings. A 
Bachelors Degree, although commendable, is no longer enough to compete 
for the job openings that require higher levels of education and 
skills. For example, the local population could fill those postings. In 
addition to creating employment, the decrease in costs affiliated with 
expatriates, would benefit the organizations as well. The Hispanic 
graduate students that leave Hidalgo County are prepared to compete for 
positions all over the country and internationally. Those that wish to 
remain and contribute their skills and knowledge to the local community 
can so with confidence. I can only speak for the UTPA College of 
Business Administration, but I have been privileged to learn more than 
I ever thought imaginable. This area is a ``goldmine'' to conduct 
research in the business area, science, and technology fields. Our 
college emphasizes research and skills acquired at the graduate level 
are necessary to perform the research. If indeed Congress pledges to 
strengthen the role of research at Hispanic serving institutions. 
Please be advised that UTPA serves a large Hispanic population (88.5 
percent). However, I feel that more needs to be done to recruit 
students from the Rio Grande Valley to benefit from the UTPA 
institution.
    Personally, the odds of my achievement were stacked against me. My 
parents are immigrants from Mexico. My father and his family were 
laborers traveling the U.S. to find fieldwork in which to earn a 
living. We were very poor and lived in government housing until I was 
14 years old. My father was permanently disabled when I was two years 
old. My mother was employed at a childcare center when I was 14 years 
old. She did everything from changing diapers to cooking for $ 60.00 a 
week. Eventually, we were able to own a child care center in Edinburg, 
Texas. During those 21 years in the child care industry, I earned my 
Bachelors Degree in Business Administration from UTPA as a part time 
student. During that time, I also became the guardian of my father, 
which entailed supporting him as well. Eventually, the center was sold, 
and I returned to UTPA a graduate student. Although I could not obtain 
scholarships, I was able to raise private financing. This was the only 
way I could support my family. I was accepted into the doctoral program 
the same year I graduated as an MBA student extending my graduate 
program. I have been enrolled for five years. I am emphasizing that 
without private financing and due to the lack of financial resources 
available to the graduate students at UTPA, I would not have been able 
to continue my Master's and Ph.D. studies. I am proud to be a part of a 
growing number of Hispanics who believe we must make a difference in 
the numbers of post baccalaureate degrees. Having worked and observed 
small children for 21 years, I can personally testify that my 
experiences led me to validate prior studies and research about 
children and the importance of role-playing. Indeed, children live what 
they learn and see everyday. If more children witness their brothers, 
sisters, cousins, relatives, community members, church members, etc. 
achieve not only baccalaureate degrees, but graduate degrees; they will 
emulate this behavior. I see this in my niece's and my son's 
achievements. Throughout their childhood, they witnessed their 
grandmother, aunt, and mothers strive for a higher education. There was 
never a question of whether they would obtain a higher education 
degree. This was a ``norm'' to them; my niece graduated from Brown 
University and will earn her Master's degree in social work this spring 
from the UTPA. My son was accepted to the University of Texas, Austin 
campus and will graduate with Honors in the top 10 percent of his 
class. Therefore, I can testify that I have witnessed this behavior in 
children for 21 years and am witnessing the same within my family.
    I want to continue beating the odds and achieve this goal so I may 
represent my people not only as a Hispanic but as a female. Sadly, I 
must report that although I have overcome poverty and personal 
tragedies within my family, I cannot overcome the obstacle of financial 
resources. I have depleted my resources. I am one example and there are 
many students with similar situations. There is very limited funding 
for students who lack financial resources to continue their education. 
Although some scholarships are available, they are limited. 
Undergraduate and graduate students are eligible for the same 
scholarships in most occasions. Most scholarship opportunities are 
available to undergraduate students only. Student loans are available 
in limited amounts as well. The lack of resources creates a great 
obstacle for Hispanic graduate students who have to choose between 
supporting their family and spending their resources on their 
education. It is most difficult when the additional factors such as the 
costs of textbooks, transportation, and childcare are factored into the 
situation.
    The structure to provide the graduate level degrees exists. It is 
larger and stronger than ever. The President of UTPA, Dr. Blandina 
Cardenas, provides the strategy to fulfill the educational needs and 
opportunities for the community with her leadership and guidance. UTPA 
ranks 2nd in the nation as a Hispanic serving institute. Moreover, UTPA 
has the largest number of Hispanic students among universities in 
Texas. We have the structure, the people, the opportunities, the 
desire, and the strategy. All we need now is the financial support to 
succeed in the goal of encouraging more and community members to 
increase the number of Hispanic graduate students. The rise in 
education helps everyone. The more educated our country is as a whole, 
the stronger it becomes. We must all yearn to seek the unknown for that 
is what innovation is all about. Our strength as a nation and Texas 
depends on our capabilities to adapt to the increasing global market 
and increasing competition with other nations whose population as a 
whole is more educated academically. If you leave the Hispanic group 
behind, that gap brings the entire nation and Texas down. Please 
persuade those who can help us. Invest in our community. I promise you 
will not regret it. The cycle of a poor education within our Hispanics 
has to end now. If you invest in us, you invest in our children and our 
community. They in turn influence others until one day, we, as a 
people, will advance. We will make our state and our nation proud.
                                 ______
                                 
    Chairman Tiberi. Doctor.

STATEMENT OF DR. RAYMUND A. PAREDES, COMMISSIONER, TEXAS HIGHER 
            EDUCATION COORDINATING BOARD, AUSTIN, TX

    Dr. Paredes. Good afternoon, Mr. Chairman, and Congressman 
Hinojosa. As Texas Commissioner of Higher Education, I'm 
delighted to offer some comments today on the issue of 
expanding opportunities in graduate education at Hispanic 
Serving Institutions.
    This topic is especially important to the Texas Higher 
Education Coordinating Board because it relates to the Texas 
higher education initiative called Closing the Gaps.
    Closing the Gaps has various components, but the most 
relevant here is to increase the number of students enrolled in 
Texas higher education by 600,000 by year 2015. In order to 
achieve this goal we need to dramatically increase enrollments 
across the board in private as well as public institutions, in 
two as well as 4-year institutions, in graduates as well as 
baccalaureate programs.
    And given the demographic trends in Texas, a large 
percentage of both the undergraduate and graduate enrollment 
growth we expect to create in Texas will be Hispanic. Put very 
simply, a failure to reach the participation goals in the 
Closing the Gaps initiative, with a special emphasis on 
dramatically higher Hispanic enrollments, will result in gloomy 
economic and quality of life outcomes for Texas.
    Turning to the specific issue of Hispanic participation in 
higher education, everyone in this room recognizes that while 
we have made substantial gains, both here in Texas and around 
the country in recent years, we still have a long way to go. 
Hispanics still lag well behind other groups in college-going 
rates, in retention and graduation rates, and, inevitably, 
participation in graduate education.
    In 2003, 34 percent of whites over the age of 25 had 
completed four or more years of college in this country. But 
for African Americans the figure was 17.3 percent, and for 
Hispanics 11.4 percent.
    In 2002, Hispanics received 4.2 percent of all master's 
degrees awarded in the United States, compared to 62.1 percent 
for whites, and 7.7 percent for African-Americans.
    From 1992 to 2002, the percentage of Hispanics receiving 
master's degrees rose from 2.6 to 4.2 percent.
    In 2002, the percentage of Hispanics receiving doctoral 
degrees was 3.1 percent compared to 57.3 percent for whites and 
5.1 percent for African-Americans.
    The share of doctoral degrees received by Hispanics in 1992 
was 2 percent. This increase of 1 percent over 10 years is not 
impressive, and I should point out that these numbers have been 
relatively flat for about 30 years. The number of Hispanics 
receiving doctoral degrees in the United States has been in the 
2 to 2.3, 3.4 range since the early 1970's.
    Clearly, progress in educational attainment for Hispanics 
has been steady but slow, while the population growth has been 
dramatic. I often say that in relation to the Hispanic 
community, we keep coming up with arithmetic solutions to 
geometric challenges.
    In Texas, where educational data for Hispanics generally 
reflect national patterns, we have 35 public and private 
Hispanic Serving Institutions, 16 of which offer advanced 
degrees. Especially at public institutions, the number of 
graduate programs in Texas HSIs has increased greatly over the 
past 15 years, largely in professional fields such as 
education. This growth has occurred in both master's and 
doctoral degree programs. A quick glance of degree-granting 
data from Texas HSIs shows clearly that they grant graduate 
degrees to Hispanics at much higher rates than non-HSIs.
    At Sul Ross State University in Alpine, for example, of 102 
master's degrees awarded in 2004, 42 went to Hispanics, or 39 
percent. At another HSI, UT-Pan American, of 489 master's 
degrees awarded, 373 went to Hispanics, or 76 percent.
    By comparison, at the University of North Texas, a non-HSI, 
of 1,512 master's degrees awarded, only 83 went to Hispanics, 
or 5.4 percent.
    At the doctoral level, the HSIs that granted the most 
degrees were Texas A & M University-Kingsville and UT-El Paso.
    Of 31 doctoral degrees granted at Kingsville in 2004, 13 
went to Hispanics, 42 percent. And, at UTEP, 24 doctoral 
degrees were granted, of which 5 went to Hispanics,.
    21 percent.
    By comparison, at UT-Austin, which is one of the largest 
doctorate-producing institutions in the country, 31 of 683 
doctorates went to Hispanics, 4.5 percent; while at Texas A & M 
University, the other public flagship in Texas, only 15 of 151 
doctorates went to Hispanics, 2.9 percent. The data for other 
Texas public universities reveal a similar pattern.
    Several conclusions can be drawn from these data. First, it 
is clear that Hispanics participate at increasingly lower rates 
the higher the level of degree program, whether at HSIs or non-
HSIs. Second, at both masters and doctoral levels, HSIs tend to 
produce a higher percentage of Hispanic graduates than non-
HSIs. And the data from Texas show that HSIs tend to have a 
relatively small number of doctoral programs, with relatively 
small numbers of students.
    In Texas, as around the country, there's a large gap 
between the academic resources of HSIs and large public non-
HSIs, such as the University of Texas at Austin, Texas A & M 
University, and the University of North Texas.
    Finally, despite the large Hispanic population across 
Texas, the numbers for Texas non-HSIs, in terms of doctorates 
awarded to Hispanics, resemble non-HSIs around the country more 
than they resemble HSIs in their own state. In other words, 
their participation rates for Latinos in graduate programs do 
not reflect the presence of a large Latino population in their 
regions.
    The challenge for HSIs in Texas is to maintain and increase 
access while simultaneously improving quality, especially at 
the doctoral level. Given the condition of the state budget, it 
is doubtful whether Texas, or any other state, for that matter, 
can provide the support necessary for HSIs to achieve the 
proper balance between access and excellence.
    Graduate education for Latinos does present distinctive 
academic challenges, and any targeted support to HSIs from the 
Federal Government, as represented by H.R. 761, is greatly 
needed. They will also help Texas move more closely toward the 
goals of Closing the Gaps in student participation in Texas 
Higher Education.
    Thank you.
    Chairman Tiberi. Thank you, Doctor.
    [The prepared statement of Dr. Paredes follows:]

    Statement of Dr. Raymund A. Paredes, Commissioner, Texas Higher 
                Education Coordinating Board, Austin, TX

    Good afternoon, Chairman Tiberi and other members of the 
Subcommittee on Select Education. I am Raymund Paredes, Commissioner of 
Higher Education in Texas. I am delighted to offer some comments today 
on the issue of Expanding Opportunities for Graduate Education at 
Hispanic Serving Institutions. This topic is especially important to 
the Texas Higher Education Coordinating Board because it relates to the 
Texas Higher Education initiative called Closing the Gaps.
    Closing the Gaps has various components, but the most relevant here 
is to increase the number of students enrolled in Texas higher 
education by 600,000 by the year 2015. In order to achieve this goal, 
we need to dramatically increase enrollments across the board, in 
private as well as in public institutions, in two- as well as in four-
year institutions, in graduate as well as in baccalaureate programs. 
And given the demographic trends in Texas, a large percentage of both 
the undergraduate and graduate enrollment growth we expect to create in 
Texas will be Hispanic. Put very simply, a failure to reach the 
participation goals of the Closing the Gaps initiative, with a special 
emphasis on dramatically higher Hispanic enrollments, will result in 
gloomy economic and quality-of-life outcomes for all the people of 
Texas.
    Turning to the specific issue of Hispanic participation in higher 
education, everyone in this room recognizes that while we have made 
substantial gains both here in Texas and around the country in recent 
years, we still have a long way to go. Hispanics still lag well behind 
other groups in college-going rates, retention and graduation rates and 
participation in graduate education. In 2003, 34 percent of whites over 
the age of 25 had completed four or more years of college. But for 
African Americans, the figure was 17.3 percent; and for Hispanics, 11.4 
percent. In 2002, Hispanics received 4.2 percent of all masters degrees 
awarded in the U.S., compared to 62.1 percent for whites and 7.7 
percent for African Americans. From 1992 to 2002, the percentage of 
Hispanics receiving masters degrees rose from 2.6 percent to 4.2 
percent. In 2002, the percentage of Hispanics receiving doctoral 
degrees was 3.1 percent, compared to 57.3 percent for whites and 5.1 
percent for African Americans. The share of doctoral degrees received 
by Hispanics in 1992 was 2 percent.
    Clearly, progress in educational attainment for Hispanics has been 
steady but slow, while the population growth has been dramatic. I often 
say that, in relation to the Hispanic community, we keep coming up with 
arithmetic solutions to geometric challenges.
    In Texas, where educational data for Hispanics generally reflect 
national patterns, we have 35 public and private Hispanic-Serving 
Institutions (HSIs), 16 of which offer advanced degrees. Especially at 
public institutions, the number of graduate programs at Texas HSIs has 
increased greatly over the past 15 years, largely in professional 
fields such as education. This growth has occurred in both masters and 
doctoral degree programs. A quick glance at degree-granting data from 
Texas HSIs shows clearly that they grant graduate degrees to Hispanics 
at much higher rates than non-HSIs. At Sul Ross State University in 
Alpine, an HSI, of 102 masters degrees awarded in 2004, 42 went to 
Hispanic or 39 percent. At another HSI, UT Pan American, of 489 masters 
degrees awarded, 373 went to Hispanics, or 76 percent. At the 
University of North Texas, a non-HSI by contrast, of 1,512 masters 
degrees awarded, only 83 went to Hispanics, or 5.4 percent. At the 
doctoral level, the HSIs that granted the most degrees were Texas A&M 
University-Kingsville and UT El Paso. Of 31 doctoral degrees granted at 
Kingsville in 2004, 13 went to Hispanics (42 percent); UTEP granted 24 
doctorates, of which 5 went to Hispanics (21 percent). At UT Austin, a 
non-HSI, 31 of 683 doctorates went to Hispanics (4.5 percent) while at 
Texas A&M University, the other public flagship, only 15 of 151 
doctorates went to Hispanics (2.9 percent). The data for other Texas 
public universities reveal a similar pattern.
    Several conclusions can be drawn from these data. First, it is 
clear that Hispanics participate at increasingly lower rates the higher 
the level of degree program whether at HSIs or non-HSIs. Second, at 
both masters and doctoral levels, HSIs tend to produce a higher 
percentage of Hispanic graduates than non-HSIs. And, finally, the data 
from Texas show that HSIs tend to have a relatively small number of 
doctoral programs with relatively small numbers of students. In Texas, 
as around the country, there is a large gap between the academic 
resources of HSIs and large public non-HSIs such as The University of 
Texas at Austin, Texas A&M University and the University of North 
Texas. Finally, despite the large Hispanic population across Texas, the 
numbers for Texas non-HSIs, in terms of doctorates awarded to 
Hispanics, resemble non-HSIs around the country more than they resemble 
HSIs in the same state.
    The challenge for HSIs in Texas is to maintain and increase access 
while simultaneously improving quality, especially at the doctoral 
level. Given the condition of the state budget, it is doubtful whether 
Texas, or other states for that matter, can provide the support 
necessary for HSIs to achieve the proper balance between access and 
excellence. Graduate education for Latinos does present distinctive 
academic challenges and any targeted support to HSIs from the federal 
government, as represented by H.R. 761 is greatly needed. This will 
also help Texas move closer toward closing the gaps in student 
participation in higher education.
    Thank you.
                                 ______
                                 

 STATEMENT OF DR. JOSE JAIME RIVERA, PRESIDENT, UNIVERSITY OF 
            THE SACRED HEART, SAN JUAN, PUERTO RICO

    Dr. Rivera. Chairman Tiberi, Congressman Hinojosa, 
colleagues and friends attending this hearing, my name is Jose 
Jaime Rivera, and during the last 12 years I've had the 
privilege of being the President of Universidad del Sagrado 
Corazon, University of the Sacred Heart, a private Catholic 
comprehensive nonprofit coeducational institution offering 
associate, baccalaureate, post-baccalaureate certificates and 
master's degrees.
    It was established as a girls school in 1880, initiated 
collegiate level programs in 1935, and master's programs in 
1985.
    In order to meet the 5-minute requirement, I would like to 
submit my written testimony and concentrate on the following 
key issues and conclusions.
    No. 1, Title V institutional and comparative grant programs 
have played a fundamental role in strengthening HSIs and in 
moving them closer to the mainstream of American higher 
education. Still, as shown in my written testimony, educational 
attainment of Hispanics still lags that of non-Hispanics, 
whites and blacks, even though Hispanics represent an 
increasingly sizable proportion of the new workforce for this 
century's national economy. Thus we must paraphrase the famous 
statement of a nation at risk and say that if our military 
enemies prevent this nation's investment in higher education of 
Hispanics, this would be as devastating as the bombing of our 
infrastructure.
    No. 2, the Bureau of Labor Statistics has documented that a 
relationship between educational attainment and lifetime 
earnings are directly related, so that a person with less than 
high school will have a lifetime earning of a million dollars. 
Those with a bachelor's degree will earn 2.1 million. Those 
with a master's degree will earn 2.5 million, those with a 
Ph.D. will make 3.4 million, and those with professional 
degrees will make 4.1 million during their lifetime.
    I believe that the rate of return of what is invested in 
supporting graduate higher education, especially for Hispanics, 
can be shown to be high. When this return is joined by the 
savings from means-tested social programs that will not be 
required by those achieving their educational aspirations, and 
the tax revenues that such higher incomes will pay, and are 
accounted for, there should be no hesitation as to the 
legislation that needs to be approved.
    No. 3, given that HSIs provide a nurturing and supportive 
environment to Hispanic students, and given the income 
differentials through life that these students will receive by 
having a graduate education, it is important for Title V to add 
this new part to provide financial assistance in support of 
HSIs efforts to develop and strengthen graduate programs.
    These funds will assist in developing academic support 
services, technological infrastructure, administrative support 
services, recruiting additional faculty, improving physical 
resources needed to offer these programs, among other uses.
    Along the line of providing support for HSIs, there are two 
areas I would like to add, which may be better served through 
new programs. One refers to resources for physical construction 
and renovation, to provide physical facilities for new graduate 
programs. The second would call for special funds to establish 
institutional endowments for the long-term support of the 
graduate programs, to be matched through funds obtained by the 
HSIs in the format of the Challenge Grants.
    No. 5, a similar need has been identified for the creation 
of a new section of the Title V for a technological enhancement 
program for HSIs. It is critical for HSIs to have a competitive 
technological infrastructure to make their students as 
competitive as those students attending mainstream well-endowed 
non-minority institutions.
    No. 6, it is urgent to act now on the elimination of the 2-
year wait-out period of HSIs between grant completion and new 
application cycles.
    A significant number of institutions were affected this 
year by this absurd requirement, and they are not receiving 
support from Title V. An even larger number will end their 
Title V support this year, and if this is not eliminated now, 
there will be no time to call for a new proposal that can start 
in October 2005.
    Before I finish, I must state my absolute rejection of the 
establishment of a single definition of a higher education 
institution. Such a single definition will result in a 
disservice to Hispanics and other minorities and will divert 
resources from those institutions that have a commitment and 
integrity to meet their community needs.
    I will finish thanking the congressional members of the 
Committee and the members of their staff for working to make 
nation economically and socially viable by ensuring that it 
remains competitive and capable of living by its creeds.
    Thank you.
    Chairman Tiberi. Thank you.
    [The prepared statement of Dr. Rivera follows:]

Statement of Dr. Jose Jaime Rivera, President, University of the Sacred 
                      Heart, San Juan, Puerto Rico

    Honorable Members of the House Committee on Education and the 
Workforce, colleagues and friends attending this hearing: My name is 
Jose Jaime Rivera, and during the last twelve years I have had the 
privilege of being the President of Universidad del Sagrado Corazon, 
(University of the Sacred Heart), a private (Catholic), comprehensive, 
non-profit, coeducational institution offering associate, 
baccalaureate, post baccalaureate certificates and master's degrees. It 
was established as a girls school in 1880, initiated collegiate level 
programs in 1935 and Master's programs in 1985. The University has 
consortia, academic and cultural agreements with several institutions 
in Puerto Rico, United States and Europe. Study abroad and student 
exchange opportunities are available in Spain, Mexico, France, Belgium, 
and with over 150 universities in the United States through the 
National Student Exchange Program.
    The University has been regionally accredited by the Middle States 
Association of Colleges and Schools since 1950 and it holds 
professional accreditations in nursing (NLN), medical technology 
(NAACLS) and social work (CSWE).
    The University of the Sacred Heart has benefited significantly from 
the diversity of programs available as a result of the Higher Education 
Act of 1965 [as amended]. During the last eleven years USH was able to 
initiate a mayor academic development effort with the support of TITLE 
III [1994-99] and now, especially through TITLE V [2000-2005]. These 
programs allowed our University to establish the first digital graphic 
environment library on the Island in 1994 and latter on, with this 
powerful project as its foundation, a TITLE V grant allowed us to 
establish in 2000 a web-enhanced learning project which is impacting 
all our programs and benefiting over 3,000 students. This technological 
enrichment project is benefiting our students by allowing them to learn 
how to learn through web-supported activities that prepare them to 
enter the work force with very [first world] competitive skills.
    Education programs, such as FIPSE have also assisted us in setting 
two unique curricular projects. The first is a community-based learning 
model centered on service/learning where all seniors in all majors 
participate in courses where they work as consulting teams to grass-
root, community based organizations that present us with their 
capacity-building needs. These requests are assigned to corresponding 
courses where students will spend a semester working in small teams to 
solve the assigned problem. As a result, since its inception in 1998, 
over 150 organizations have been assisted by this methodology, 
developed with FIPSE support. FIPSE also supported the establishment in 
2002 of a unique project to integrate language/communication skills in 
English and Spanish across the disciplines to address the expectations 
that the labor market has for competencies in oral and written 
communication. The University also benefits from the TRIO programs 
which have assisted hundreds of low-income, first generation students 
to attend college and improve the persistence and graduation rates. 
Other federal programs have also contributed to our projects but, if 
you compare our institution with similar non-Hispanic institutions you 
will discover significant differences in the sources and scope of 
support. As stated by HACU: ``Yet, HSIs on average continue to receive 
less than half the funding per student accorded to every other degree-
granting institution. According to 2001-02 IPEDS statistics of the 
Department of Education, HSIs received $8,596. per student on average 
from all revenue sources, compared to $18,673 per student for all 
degree-granting institutions.'' (HACU, Legislative Agenda 2005, p.5).
    Needless to say, the contribution of the Higher Education Act of 
1965 and its reauthorizations have played a significant role in our 
capacity to meet community needs. The same can be said of our sister 
universities in Puerto Rico, both public and private, which, without 
the support provided by the Higher Education Act could not have 
impacted thousands of Hispanic students who are now successful 
professionals as a result of the resources the HEA has provided to us. 
As more initiatives have been created to specifically address the needs 
of HIS and Hispanic students, our colleges and universities have been 
more capable of meeting, at least partially, some equity and quality 
commitments we have made to our communities. But as the demographics 
evidence, we still are highly under funded and, because of the 
demographics and the changing economy, HSIs find ourselves increasingly 
distant from the capacity to meet the needs of our community
    This is why the TITLE V of HEA is so critical not just to our HSIs 
future but to the future of this nation. TITLE V is a fundamental 
initiative who's strengthening and expansion we support and promote. 
Our first TITLE V grant, as described, assisted us in establishing a 
web-enhanced learning project which has supported training over 68% of 
our full-time faculty in the use of web-supported teaching strategies. 
As a result, 135 courses were revised with this methodology, impacting 
85% of our General Education courses which make up 45% of the 
curriculum. In addition, over 75 courses in key majors have 
incorporated web-enhanced methods. This TITLE V grant also allowed for 
$238,600.00 to be added to our small endowment, a fund that is slowly 
growing and should, in the long run, strengthen our financial 
stability.
    Given the leadership role that our University plays in Puerto Rico, 
with the support of the TITLE V Cooperative Grant, we developed an 
alliance to establish a virtual library between USH, the Municipality 
of San Juan Community College, Polytechnic University and American 
University in Bayamon. Our goal was to create this consortium to help 
each other in strengthening our virtual collections and join forces in 
purchasing these collections as well as obtaining expert services to 
strengthen our web services and their security, provide training and 
development opportunities for the professional personnel that work in 
our libraries to better serve the students and community needs. As a 
result of this TITLE V grant we have achieved the following results:
    <bullet>  18,000 Hispanic students are being provided access to 
37,808 journal titles 22,240 of which are full-text and which they can 
access anywhere, anytime. None of these students or their faculty had 
they been able to access such a wide range of learning resources.
    <bullet>  They can also access over 13,000 books with their full 
text and a significant art collection of over 1,000,000 images, among 
other resources.
    <bullet>  Collectively, our participating institutions have been 
able to save over $1,175,000. This represents what we have saved by 
buying together instead of individually if we had wanted to purchase 
such a magnificent collection.
    <bullet>  Hundreds of training and development hours have been 
provided which would not have been accessible to the individual 
institutions where it not for this fundamental collaborative project.
    Why are these initiatives important to the Hispanic community? Why 
must they be not only maintained but expanded as a sound investment in 
the future of the United States economy and social well-being?
    The answer rests on the demographic and economic changes taking 
place in the nation and the world.
    As we all know, the future production possibilities and wealth of a 
country depend on the profile and composition of its workforce. But the 
profile of its workforce will, in turn depend on the educational 
choices made by the men and women of that society and the investments 
made to promote access and the quality of the educational experience.
    The 2000 Census discovered or uncovered the fast growing presence 
of the Hispanic community in the USA. It became evident to all that new 
indicators had become critical for the profile of the new USA economy 
and for the emerging new makeup of our communities and society in 
general. As a result, it has become evident that the new USA workforce 
will be increasingly Hispanic. As the baby-boomers retire, there will 
be serious shortages of well-trained and educated individuals with the 
highest degrees that this new economy calls for to develop the wealth 
of the nation. The solution calls for significant investment in the new 
workforce which is being served and can be served by HSIs.
    If Adam Smith, the father of Capitalism, was living in this era, he 
would recognize that in a knowledge-based economy, the profile of its 
labor force will be the major determinant of wealth. A labor force 
educated to its highest levels will be very productive, will foster 
innovations, will strengthen out tax-base, will contribute larger 
amounts to the Social Security System, will have little or no 
dependency on social programs and will promote a higher level of 
educational attainment in their children.
    Let us look at some key economic facts identified by various US 
Census studies:
    <bullet>  As more and more people continue their schooling, this 
more highly-educated population pursues opportunities to enter into 
occupations yielding higher returns in earnings.'' (US Census Bureau, 
The Big Payoff: Educational Attainment and Synthetic Estimates of Work-
Life earnings, July 2002, p.2 [P23-210])
    <bullet>  Over the past 25 years, earnings differences have grown 
among workers with different levels of educational attainment.'' 
(Ibid., p.3)
    <bullet>  The Hispanic population was less likely than other groups 
to have completed high school or college. In 2000, 57% of Hispanics 
aged 25 and older were high school graduates--a significant improvement 
over the 1989 share of 51%. However, the percentage of Hispanics that 
held a bachelor's degree or higher, 11%, was not significantly 
different than the percentage in 1989.'' (USCB, Population Profile of 
the US: 2000 (Internet release); 9-2)
    <bullet>  HACU represents more than 400 colleges and universities 
committed to Hispanic higher education success in the U.S., Puerto 
Rico, Latin America and Spain. Although HACU member institutions in the 
U. S. represent less than 7% of all higher education institutions 
nationwide, together they are home to more than two-thirds of all 
Hispanic college students.'' (www.hacu.net; HACU 101.)
    <bullet>  Our nation's economic and social success rests on the 
level of skills and knowledge attained by Hispanics, now the nation's 
largest minority population. Education, indisputably, is the key.'' 
(Ibid.)
    <bullet>  At a time when advanced skills are becoming a more 
important measure of future earnings, tax dollars and the nation's 
economic strength, only 20% of HSIs offer a master's degree. Less than 
12% of HSIs offer a doctoral degree. Many under funded HSIs do not have 
the infrastructure to offer advanced degree programs.'' (HACU, 2005 
Legislative Agenda, p. 9.)
    <bullet>  The proportion of the [Hispanic] population 25 years and 
over with a high school diploma increased from 53% in 1993 to 57% in 
2003; the proportion who had some college increased from 26% to 30%; 
and the proportion with a bachelor's degree increased from 9% to 11%. 
Nonetheless, they remain lower than the levels for non-Hispanic Whites, 
Blacks and Asians.'' (2003 Current Population Survey report, 
Educational Attainment in the United States: 2003, p.5)
    <bullet>  With regard to post baccalaureate degrees, Statistical 
Abstracts from 2001 show only 3.3% of Hispanics have graduate degrees, 
compared to 8.8% of non-Hispanic whites.'' But, ``According to 
Department of Labor, Bureau of Labor Statistics, Handbook of Labor 
Statistics for 2001, Hispanics comprise less than 5% of most fields 
requiring advanced degrees. Hispanics comprise only 4.7% of all 
employment in professional specialty fields, including only 4.7% of the 
country's physicians, 2.8% of natural scientists, 3.6% of mathematical 
and computer scientists, 5.4% of public school teachers, 3.5% of 
engineers and 3.2% of lawyers and judges.'' (HACU, 2005 Legislative 
Agenda, p. 9.)
    <bullet>  Although Hispanics make up over 12% of the US population, 
they currently earn only about 5% of master's degrees, 3% of doctoral 
degrees and 5% of first professional degrees.'' (Antonio Flores, HACU, 
The Voice, March 2005, p. 1).
    <bullet>  On average, a man with a high school education will earn 
about $1.4 million from ages 25 to 64 years. This compares with about 
$2.5 million for men completing a bachelor's degree and $4.8 million 
for men with a professional degree.'' (www.womenscouncil.org/pdfs/
educationalearnings.pdf )
    All of these references, representing but a fraction of available 
data, support our basic proposition. Investing in HSIs for capacity 
building to allow them to establish solid graduate programs and 
professional schools will significantly increase the pool of Hispanics 
with advanced degrees. This is so because HSIs are better prepared to 
produce a nurturing and supportive environment for Hispanic students, 
assist them in the transition from high school to the bachelor's 
degree, and from the bachelor's to an advanced degree. It is an 
investment because the difference in life-long earnings between those 
with only a bachelor's degree and those with masters or professional 
degrees is highly significant. In an economy more and more 
characterized by jobs in professional specialty fields, lacking the 
corresponding required educational level will imply living a life of 
low incomes, longer periods of unemployment, dependency on government 
transfer programs, raising children that will have a higher probability 
of low educational attainment, and other characteristics of the culture 
of poverty. Such results are more expensive than investing in HSIs 
development and in its graduate programs.
    Thus, we are proposing the establishment of a new section under 
TITLE V of the HEA to be identified as Part B, Graduate Education, to 
assist HSIs efforts to build or strengthen existing capacity to provide 
advanced education to capable students with a bachelor's degree. Such a 
part should be properly funded with an initial assignment of $125 
million.
    Besides, there are some critical issues to be addressed by the 
reauthorization of the HEA:
    <bullet>  The elimination of the two-year wait out period for HSIs 
between grant completion and new application cycles to be legislated in 
this first session of the 109th Congress.
    <bullet>  The elimination of the 50 percent low-income assurance 
requirement from the funding criteria of Title V, since this 
requirement is only applicable to HSIs among Minority Serving 
Institutions, and it crates an unfair, unnecessary and costly 
administrative burden.
    <bullet>  The creation of a new section under Title V, Part D, of 
the HEA for a Technology Enhancement Program for HSIs to support 
institutional efforts to improve technological infrastructure in order 
to provide the Hispanic and other populations served at HSIs with 
state-of-the-art digital technology to make them as competitive as 
those students attending mainstream, well endowed and non-minority 
institutions that provide their students with access to the most 
advanced technological resources.
    Thus, I close by reaffirming the urgent need for an immediate 
repeal of the two-year wait out period imposed on HSIs to reapply for 
TITLE V support; the need to support and expand TITLE V due to the 
critical role it plays in increasing the quality of our educational 
initiatives; the fundamental need for new parts in TITLE V to support 
HSIs capacity to develop or strengthen graduate education and to 
establish community-responsible technological infrastructures in light 
of the competencies demanded from our workforce by the new economy. In 
the next round of hearings we would like to address other elements of 
the Higher Education Act that are also critical for the wellbeing of 
this nation and which should be considered by the Honorable Commission. 
Thank you again for the opportunity you have provided to us to present 
our perspectives on this crucial effort.
                                 ______
                                 
    Chairman Tiberi. And, finally, last but not least.

     STATEMENT OF DR. TOMAS ARCINIEGA, PRESIDENT EMERITUS, 
   CALIFORNIA STATE UNIVERSITY BAKERSFIELD, VALLEY CENTER, CA

    Dr. Arciniega. Thank you. Good afternoon, Representatives 
Tiberi and Hinojosa.
    It is an honor for me to appear here to testify before the 
Subcommittee on Select Education and the House Committee on 
Education in the Workforce regarding H.R. 761. I am here on 
behalf of the more than 242 Hispanic Serving Institutions and 
the, importantly, 80 HSIs that will be eligible to participate 
in the graduate program.
    My name is Tomas Arciniega, professor emeritus at 
California State University at Bakersfield, an HSI, and 
currently I serve as special assistant to the chancellor of the 
California State University System.
    I'm also a past chair and current governing board member of 
the Hispanic Association of Colleges and Universities.
    HSIs are an important national resource for the education 
of Hispanics and other minority groups in this nation. Half of 
all Latino students engaged in higher education attend HSIs. In 
urban areas across the country, HSIs also educate a significant 
percentage of African-American students.
    In the institution I headed for over 21 years, 30 percent 
of the enrolled students were Latinos, who also represent 23 
percent of all graduate students. African-Americans, native-
Americans, and Asian and Pacific Islanders make up another 15 
percent of that student population. Therefore, any programs 
that assisted HSIs also benefited other minority group members 
attending such institutions.
    Today, as you've heard, the Latino population is the 
largest minority group in the U.S. The Hispanic population of 
the United States, according to the latest report from the 
census, as of July 1, 2003, numbers 43.8 million, 13.7 percent 
of the U.S. Population, with 39.9 million in the mainland U.S. 
and 3.9 million in Puerto Rico.
    By July 2050, according to the U.S. Census projections, 
Hispanic Americans will number 102.6 million, or one fourth of 
the nation's total population. The number of Hispanics will 
nearly triple between 2000 and 2050. These numbers reflect the 
dramatic growth in the Hispanic population in recent years, a 
growth that's expected to continue, obviously, in the decades 
ahead.
    Already an--quotes, unquotes--``emerging majority'' in 
several regions of the country, Hispanics are also the fastest 
growing school age population, with U.S. Census Bureau 
projections anticipating a 60 percent increase in the Hispanic 
school age population over the next 20 years.
    Current U.S. Department of Labor studies show that 
Hispanics, who currently represent about 13 percent of the U.S. 
workforce and make up one of every three new workers, are 
projected to provide one of every two new workers by 2025.
    The expanding Latino population has resulted in a growing 
number of Hispanic Serving Institutions, a number which is 
projected to continue to grow over the next five to 10 years. 
According to NCES data, 2003, there are now over 90 colleges 
and universities which have Latino enrollments between 18 and 
24 percent, and which are expected to become HSIs in the near 
future.
    With a median age of 26.7, according to the U.S. Census 
Bureau, Hispanics are more than a decade younger than non-
Hispanic whites. Our nation and economy will demand an expanded 
and educated workforce to replace the large number of retiring 
baby boomers who will vacate jobs crucial for this nation to 
maintain its preeminence in research, technology, science and 
engineering.
    Latinos and other minorities must be encouraged and 
assisted to pursue advanced education beyond the baccalaureate 
level in areas essential for business, for industry and for 
government, the public sector and the post-secondary education 
systems of this country as faculty, administrators, and yes, 
presidents.
    These new graduates will provide the professional workforce 
necessary for this nation in the coming decades. Advanced 
technical and scientific skills are becoming essential to 
future earnings and career achievement in areas necessary to 
the nation's economic strength, security, and position within 
the world economy. However, only 20 percent of HSIs today offer 
a master's degree; less than 15 percent of HSIs offer a 
doctoral or first professional degree.
    Many underfunded HSIs do not have the infrastructure to 
offer advanced degrees. Funding to support the growth of 
graduate programs in HSIs, as proposed in H.R. 761, would 
contribute to reversing that persistent underrepresentation of 
Hispanics in research, in teaching, in science, technology, and 
professional ranks, and will add to the nation's professional 
workforce for the immediate and long range future.
    A chronic shortage of Hispanic professionals with advanced 
degrees, especially in science, technology, engineering, 
mathematics, biomedicine and professional careers, results, as 
we all know, in a workforce in the scientific and professional 
community that simply is not reflective of the nation's diverse 
population.
    Advanced degrees translate into higher salaries, that's 
obvious, with a concomitant higher taxable income, which helps 
alleviate Federal and state budget deficits.
    Without the infusion of new professionals with advanced 
degrees and the specialized knowledge, the U.S. will be unable 
to keep its competitive edge in the global economy.
    At the same time, challenges to affirmative action from 
Proposition 209 in California and the Hopwood Court decision in 
Texas, to more recent affirmative action battles in Michigan 
and other state, have reduced dramatically minority enrollments 
in some graduate and professional schools across this country.
    The U.S. Supreme Court in Gratz v. Bollinger and Grutter v. 
Bollinger in June 2003 issued a split decision, ruling in favor 
of affirmative action in the admissions policies at the School 
of Law of the University of Michigan, but against criteria for 
admissions policies for undergraduate students. Meanwhile, 
current diversity efforts have been inadequate to offset the 
effects of Hopwood and other similar court rulings.
    The proposed bill, H.R. 761, as written, would provide HSIs 
with important and urgently needed resources to expand advanced 
educational opportunities to Latinos and other minorities, but 
because so many of these students are already enrolled in HSIs, 
their access to graduate degree programs at these institutions 
would bypass much of the affirmative action debate that rages 
all too often at so many more selective institutions.
    At 6.4 percent, Hispanics remain the only underrepresented 
group in the Federal workforce. This inadequate representation 
occurs in all agencies, but especially at NASA, the National 
Institutes of Health, the Food and Drug Administration, and 
other agencies requiring advanced degrees for employment in an 
increasing number of such positions.
    The underrepresentation of Hispanics in higher education is 
even more daunting. The National Center For Education 
Statistics reports that only 3.1 percent of all the executive 
administrative positions were held by Hispanics, and a mere 3 
percent of all faculty positions. For the Federal workforce to 
reach parity with the general civilian workforce, the 
government would need to double the number of Hispanics in 
Federal jobs. For higher education to reach parity, the number 
of Hispanics employed there would have to more than quadruple.
    HR 761 would support capacity building opportunities for 
HSIs to develop and enhance doctoral and professional programs, 
which would increase dramatically the pool of qualified 
Hispanic faculty and administrators, including chief academic 
officers and presidents at HSIs, as well as highly educated 
professionals in many other areas.
    Addressing the underrepresentation of Hispanics in key 
areas of the workforce takes an even greater in light of NCES 
Digest of Education statistics, which show that Hispanics in 
2002 earned 4.6 percent of all master's degrees compared to 68 
percent for non-Hispanic whites and 13.2 percent for 
nonresident aliens. In 2002, Hispanics earned only 3.2 percent 
of all doctoral degrees.
    Title V of the HEA remains the chief vehicle for targeting 
Federal funds to HSIs. H.R. 761 and S 357 have been introduced 
to authorize a first-time 125 million dollar level of spending 
for graduate education grants to HSIs to expand and enhance 
post-baccalaureate opportunities at HSIs. The bill would 
establish a competitive grants program that would allow 
eligible HSIs to support graduate fellowships, key support 
services for graduate students, key infrastructure 
improvements, faculty development----
    Chairman Tiberi. Can you wrap it up?
    Dr. Arciniega.--et cetera.
    Chairman Tiberi. Can you wrap up your testimony, Doctor?
    Dr. Arciniega. Yes.
    I don't have to pinpoint, especially for you, the key 
issues: Increase current support for 2-year and 4-year 
undergraduate efforts, in terms of the infrastructure; reduce 
the regulatory burdens for HSIs participating in the existing 
undergraduate Title V program; remove the 50 percent low income 
assurance requirement from the Federal definition of HSIs; and, 
finally, add a new use for Title V undergraduate grants by 
allowing the funding of articulation agreements and student 
support programs to facilitate the transfer of students from 2-
year to 4-year institutions.
    Mr. Chairman and Ranking Member Hinojosa, thank you very 
much for allowing me to--the privilege of testifying before 
your Committee.
    Chairman Tiberi. Thank you, Dr. Arciniega.
    [The prepared statement of Dr. Arciniega follows:]

Statement of Dr. Tomas Arciniega, President Emeritus, California State 
               University Bakersfield, Valley Center, CA

    Good afternoon, Representatives Tiberi and Hinojosa. It is an honor 
for me to appear here to testify before the Subcommittee on Select 
Education of the House Committee on Education and the Workforce on HR 
761. I am here on behalf of the more than 242 Hispanic Serving 
Institutions (HSIs) and the 80 HSIs that will be eligible to 
participate in the graduate program delineated in the proposed 
legislation as a part of the Reauthorization of the Higher Education 
Act of 1964.
    My name is Tomas Arciniega, President Emeritus of California State 
University at Bakersfield, an HSI, and currently I serve as Special 
Assistant to the Chancellor of the California State University System. 
I am also a past Chair and current Governing Board member of the 
Hispanic Association of Colleges and Universities (HACU).
    HSIs are an important national resource for the education of 
Hispanics and other minority groups in the nation. Half of all Latino 
students engaged in higher education attend HSIs. In urban areas across 
the country, HSIs also educate a significant percentage of African-
American students. In the institution I headed for over 21 years, 30% 
percent of the enrolled students are Latinos, who also represent 23% of 
all graduate students. African-Americans, Native Americans and Asian 
Pacific Islanders make up another 15% of the student population. 
Therefore, any programs that assist HSIs also benefit other minority 
group members attending such institutions.
    Today, the Latino population is the largest minority group in the 
United States. The Hispanic population of the United States, according 
to the latest report from the U.S. Census Bureau as of July 1, 2003, 
numbers 43.8 million, 13.7% of the U.S. population, with 39.9 million 
in the mainland United States and 3.9 million in Puerto Rico. By July 
1, 2050, according to U.S. Census Bureau projections, Hispanic 
Americans will number 102.6 million or one-fourth of the nation's total 
population. The number of Hispanics will nearly triple between 2000 and 
2050. These numbers reflect the dramatic growth in the Hispanic 
population in recent years, a growth that is expected to continue in 
the decades ahead.
    Already an ``emerging majority'' in several regions of the country, 
Hispanics are also the fastest-growing school-age population, with U.S. 
Census Bureau projections anticipating a 60 percent increase in the 
Hispanic school-age population over the next 20 years. Current U.S. 
Department of Labor studies show that Hispanics, who currently 
represent about 13 percent of the U.S. work force and make up one of 
every three new workers, are projected to provide one of every two new 
workers by 2025.
    The expanding Latino population has resulted in a growing number of 
Hispanic Serving Institutions, a number which is projected to continue 
to grow over the next five to ten years. According to the NCES 2003 
data, there are now over 90 colleges and universities which have Latino 
enrollments between 18-24% and which are expected to become HSIs in the 
near future.
    With a median age of 26.7, according to the U.S. Census Bureau 
(Statistical Abstract: 2004), Hispanics are more than a decade younger 
than non-Hispanic whites with a median age of 39.6. Our nation and 
economy will demand an expanded and educated workforce to replace the 
large number of retiring ``baby boomers'' who will vacate jobs crucial 
for the nation to maintain its preeminence in research, technology, 
science, and engineering. Latinos and other minorities must be 
encouraged and assisted to pursue advanced education beyond the 
baccalaureate level in areas essential for business, industry, 
government, the public sector, and the post secondary education system 
as faculty, administrators and presidents. These new graduates will 
provide the professional workforce necessary for the nation in the 
coming decades.
    Advanced technical and scientific skills are becoming essential to 
future earnings and career achievement in areas necessary to the 
nation's economic strength, security and position within the world 
economy. However, only 20 percent of HSIs offer a master's degree. Less 
than 15 percent of HSIs offer a doctoral or first professional degree. 
Many under-funded HSIs do not have the infrastructure to offer advanced 
degrees. Funding to support the growth of graduate programs at HSIs, as 
proposed in HR 761, would contribute to reversing the persistent under-
representation of Hispanics in research, teaching, science, technology 
and professional ranks and add to the nation's professional work force 
for the immediate and long range future.
    The chronic shortage of Hispanic professionals with advanced 
degrees, especially in science, technology, engineering, mathematics, 
biomedicine and professional careers, results in a work force in the 
scientific and professional communities that is not reflective of the 
nation's diverse population. Advanced degrees translate into higher 
salaries with a concomitant higher taxable income, which can help 
alleviate federal and state budget deficits. Without the infusion of 
new professionals with advanced degrees and specialized knowledge, the 
U.S. will be unable to keep its competitive edge in the global economy.
    At the same time, challenges to affirmative action, from 
Proposition 209 in California and the Hopwood court decision in Texas 
to more recent affirmative action court battles in Michigan and other 
states, have reduced minority enrollment in some graduate and 
professional schools. The U.S. Supreme Court, in Gratz v. Bollinger and 
Grutter v. Bollinger in June 2003, issued a split decision, ruling in 
favor of affirmative action in admissions policies at the School of Law 
of the University of Michigan, but against certain criteria for 
admissions policies for undergraduate students. The effects of these 
rulings likely will not be felt for some time. Meanwhile, current 
diversity efforts have been inadequate to offset the effects of Hopwood 
and other earlier court rulings.
    The proposed Bill HR 761, as written, would provide HSIs with 
important and urgently needed resources to expand advanced education 
opportunities to Latinos and other minorities. Because so many of these 
students are already enrolled in HSIs, their access to graduate degree 
programs at their home institutions would bypass much of the 
affirmative action debate that rages at more selective institutions.
    At 6.4%, Hispanics remain the only under-represented group in the 
federal work force. This inadequate representation occurs in all 
agencies, but especially at NASA, the National Institutes of Health, 
the Food and Drug Administration, and other agencies requiring advanced 
degrees for employment in an increasing number of positions.
    The under-representation of Hispanics in higher education is even 
more daunting. The National Center for Education Statistics, ``Fall 
Staff Survey (1999),'' reports that only 3.1 percent of all the 
``executive/administrative/managerial'' positions were held by 
Hispanics and a mere 3.0 percent of all faculty positions. For the 
federal work force to reach parity with the general civilian workforce, 
the government would need to double the number of Hispanics in federal 
jobs. For higher education to reach parity in faculty and 
administration ranks, the number of Hispanics employed there would have 
to more than quadruple.
    HR 761 would support capacity building opportunities for HSIs to 
develop and enhance doctoral and professional programs which would 
increase the pool of qualified Hispanic faculty and administrators, 
including chief academic officers and presidents at HSIs, as well as 
highly educated professionals in many other areas.
    Addressing the under-representation of Hispanics in key areas of 
the workforce takes on even greater urgency in light of NCES Digest of 
Education Statistics which show that Hispanics in 2002 earned 4.6 
percent of all master's degrees, compared to 68 percent for non-
Hispanic whites (and 13.2 percent for nonresident aliens). In 2002, 
Hispanics earned only 3.2 percent of all doctoral degrees.
    Title V of the HEA remains the chief vehicle for targeting federal 
funds to HSIs. HR 761 and S. 357 have been introduced to authorize a 
first-time $125 million level of spending for graduate education grants 
to HSIs to expand and enhance post-baccalaureate opportunities at 
Hispanic Serving Institutions. The bill would establish a competitive 
grants program that would allow eligible HSIs to support graduate 
fellowships and support services for graduate students, infrastructure 
improvements, faculty development, technology and distance education 
and collaborative arrangements with other institutions.
    In addition HR 761 will:
    <bullet>  Increase current support for two-year and four-year 
undergraduate efforts under Title V by increasing the authorization 
level to $175 million beginning in fiscal year 2006. This increase in 
funding is needed in view of everything I have mentioned: the dramatic 
growth of the Hispanic population, their importance in the 21st century 
U.S. workforce, their under-representation in higher education and in 
professional, scientific and technical jobs which require college 
education, the key role played by HSIs, and the corresponding growth in 
the number of HSIs. Add to these issues the fact that HSIs on average 
receive less than half the funding per student accorded to all degree-
granting institutions and the wisdom of increasing the Title V 
authorization level becomes self-evident.
    <bullet>  Reduce regulatory burdens for HSIs participating in the 
existing undergraduate Title V program by eliminating the two-year 
wait-out period between applications for grants. Currently the two-year 
wait-out now required between applications by eligible HSIs for Title V 
grants impedes the effort to implement long-range solutions to Hispanic 
higher education challenges. Clearly, eliminating the two-year wait-out 
period will be of immense importance in equipping HSIs with continuous 
funding needed to best answer these complex challenges.
    <bullet>  Remove the ``50 percent'' low-income assurance 
requirement from the federal definition of HSIs which will erase 
another inequitable component of the Title V definition of HSIs. 
Current law requires that at least 25 percent of the full-time 
equivalent student enrollment must be Hispanic. In addition, 50 percent 
of those students must also fit federal low-income definitions. This 
additional regulatory burden, requiring time-consuming documentation of 
information not normally gathered, is not required of other Minority-
Serving Institutions and should be eliminated.
    <bullet>  Add a new use for Title V undergraduate grants by 
allowing the funding of articulation agreements and student support 
programs to facilitate the transfer of students from two-year to four-
year institutions. More than 50 percent of Hispanic higher education 
students attend two-year community colleges, often because they are the 
closest, most affordable entry into higher education. Expanding the 
allowable use of Title V funding to develop articulation agreements and 
student support programs will provide HSIs the means to increase the 
numbers of Hispanic Americans with four-year degrees.
    On behalf of the HSIs HACU represents and the Hispanic students 
they educate, I want to reiterate that HR 761 adds a powerful new 
dimension to Title V of the Higher Education Act. HR 761 will not only 
expand and enhance post-baccalaureate opportunities at Hispanic-Serving 
Institutions but prepare the future professional workforce for the 
nation.
    Mr. Chairman and Ranking Member Hinojosa, I appreciate the 
opportunity to testify before your Subcommittee and your Subcommittee's 
long-standing support of HSIs. I would be pleased to answer any 
questions that you may have.
                                 ______
                                 
    Chairman Tiberi. Thank you all for your very good testimony 
today and your written testimony, which has been submitted for 
the record.
    I'll begin with a few questions, and then yield to my good 
friend, Mr. Hinojosa.
    Dr. Rivera, you mentioned the 2-year wait-out period.
    Dr. Rivera. Yes.
    Chairman Tiberi. I want to tell you that the initial draft 
of the higher reauthorization by Chairman Boehner eliminates 
that 2-year requirement, which is a good thing. The bill, or at 
least the markup going out of the Committee, is probably going 
to occur this fall, and we hope to have a bipartisan bill.
    There's a number of other things going on in this hearing 
that, as Mr. Hinojosa said, is part of the formulation leading 
up to reauthorization of the Higher Education Act, but there is 
bipartisan consensus to do something good with what you talked 
about, and we hope to have that as part of the final 
reauthorization.
    Dr. Rivera. May I comment on that.
    Chairman Tiberi. You bet.
    Dr. Rivera. Again, I appreciate a lot the effort that is 
being made. The only sad thing about it is that those 
institutions--I mean, if we wait for that process to complete 
rather than introducing that piece of legislation right now, 
many HSIs will go now into their second year of getting no 
access to Title V, and a significant, even larger, number of 
institutions will just have 1 year without this support, and, 
let me tell you, it makes a big difference having access to 
those resources to strengthen our institutions.
    And the consequences of that, 2 years waiting out, de 
facto, applied already for the previous group of institutions, 
and a 1-year wait out for the big majority of HSIs has 
seriously a significant, a very severe effect.
    Chairman Tiberi. Thank you. Can I ask you a question.
    Dr. Rivera. Yes.
    Chairman Tiberi. In your written testimony, you mentioned 
several initiatives that have been developed as a result of 
your institution's Title V grant. What impact have those 
programs had specifically on student achievement at your 
institution? Can you just share that with us.
    Dr. Rivera. Well, yes, significant. I would say the first 
grant allowed us to develop a whole infrastructure for our 
library services, and a virtual, you know, system of resources 
for developing our capacity in our students and our faculty.
    With that grant we were able to provide laptops to all our 
full-time faculty members, and it was the first one in Puerto 
Rico and, I understand, in the whole U.S. That jump started a 
whole change in teaching methodologies by the faculty that has 
been very, very powerful on our students.
    And another initiative is the cooperative project we 
created with a municipal 2-year college in San Juan and two 
other private, small-sized institutions. By the cooperative 
program, we were able to join forces and have multiplied by 
many factors access to periodicals, books, and all that, for 
institutions that would have never had the money for access to 
those resources.
    Over 17,000 students are being impacted just because we're 
buying together and we were able to create this cooperative 
project. Now three more institutions want to join us, and the 
impact of that is tremendous.
    So, again, the benefit for the students is enormous. For 
the faculty, it's very stimulating, and it gives a lot of hope 
to the students that they can really achieve a first-rate 
education in our type of institution.
    Chairman Tiberi. Thank you. Thank you very much.
    Dr. Parades, the four goals driving the Closing the Gaps 
initiative by 2015, can you expand on those four goals and how 
you're working in Texas to implement them.
    Dr. Paredes. Yes. The four goals relate, first of all, to 
increasing the amount of Federal research support that Texas 
institutions receive. Texas is the second largest state, and 
yet Texas has been languishing well behind the other states in 
terms of overall Federal research support.
    So our goal is to double the amount of Federal research 
support that Texas institutions receive by the year 2015. I'm 
pleased to say we've already achieved that goal, so we're going 
to recalibrate and set our goals even higher.
    The second goal had to do with increasing the academic 
quality of Texas institutions. That means creating more Tier 1 
research universities; it means creating institutions that are 
renowned for their excellence at the undergraduate level, 
institutions that have a commitment to community-based research 
and so forth.
    We're developing a set of criteria that allow all 
institutions, those institutions that place an emphasis on 
undergraduate education, as well as those institutions that 
primarily provide doctoral education in the state, to achieve a 
certain level of academic distinction.
    The third goal relates to the academic success of our 
undergraduates. We wanted to dramatically increase graduation 
rates in Texas, which are right at the average of about--six-
year graduation rates in Texas--of about 50 percent. Although 
that is the national average, I think that nobody is pleased 
with that. We want to increase both graduation rates and 
accelerate time to degree.
    We want to improve the number of students that transfer 
from 2-year institutions to 4-year, and also increase the 
number of AA degrees, certificates and vocational licenses 
provided by 2-year institutions.
    And then the fourth goal is the one that I referred to, and 
that is to increase the number of students that go on to 
college in Texas by 600,000 by the year 2015. That number is 
the figure that would put us at parity with the national 
average. Nationally, approximately 67 percent of all students 
who graduate from high school proceed to college within a year 
of completing high school. In Texas, the figure is about 45 
percent.
    Chairman Tiberi. Are those students that are going to 
college somewhere or just going to college in Texas.
    Dr. Paredes. They're going to college in Texas, yes.
    Chairman Tiberi. OK. So that doesn't include students who 
are graduating high school and maybe leaving the state.
    Dr. Paredes. Yeah, except that those numbers aren't 
terribly large.
    Chairman Tiberi. They're not very large? OK.
    Dr. Paredes. We don't transfer into other schools a lot.
    Chairman Tiberi. There's a few at Ohio State (laughing).
    Dr. Paredes. A few (laughing). There will be a few more out 
at your campus in early September.
    Chairman Tiberi. That's right; that's right. Thank you.
    Thank you very much.
    Ms. Chapa----
    Ms. Chapa. Yes, sir.
    Chairman Tiberi.--very good testimony. Can you talk a 
little bit more about your personal experience? You mentioned, 
your word, the gap that's been created out there. How difficult 
was it for you to make the jump from the bachelor's degree into 
the next phase of your college degree, and how--what are some 
of the things that you see, from where you sit, that we can do 
to make it--to make that challenge less so, so more of your 
peers will take the leap that you took.
    Ms. Chapa. Well, to be quite honest with you, if it had not 
been for private financing, I would not have been able to have 
taken the leap. Unfortunately, the scholarships and grants are 
very limited and highly competitive. It's no one's particular 
fault, it just so happens that that's the way the agencies have 
funded it. So therefore what you do in the private sector is 
you go time and time again and try to refinance that same piece 
of land over and over and over again. And that's how I was able 
to come full-time and achieve my master's degree, and by the 
grace of God was accepted into the graduate program.
    Now, having remembered that it took me 9 years to reach 
that goal, by this time, of course, your funding resources 
begin to become very depleted, so now at the doctoral level 
what we witness is that we can barely survive, and there are 
not that many funding resources that we can apply for, 
especially at the doctoral level. And that is key, because 
although we have a low number of master's degrees obtained in 
our ethnic group, it is even more serious, the jump from the 
master's to the doctoral program. And, again, it's the lack of 
resources.
    We're at an age bracket, most of us, who have families, and 
what we've done all along is ask them to struggle with us. And 
so we do the--you know, I did the 9 years and had my family 
struggle with me, and then I said, you know, ``Wait just a 
little bit longer. Let me do this other one.'' OK. And then 
it's like ``OK, can you wait just a little bit longer?'' And it 
eventually takes its toll, of course, after so many years.
    So I would highly suggest that there be programs funneled--
catered to the student who is not just leaving the bachelor's 
world and going into the master's degree level, but also from 
the master's degree into the Ph.D. level, especially the Ph.D. 
level that requires a great deal of our time. As I said, our 
class work is much more extensive than when we earned our 
bachelor's. Our research time that we have to invest per class 
is also--it restrains us so that we're not able to go out and 
try and find additional sources of funding so that we can 
complete our studies. It's a long-term commitment.
    Chairman Tiberi. I don't want to put words in your mouth, 
but if you didn't have this opportunity here, could you foresee 
the ability to go to Texas A & M or UT Austin to pursue your 
Ph.D.
    Ms. Chapman. No, sir. No, sir, absolutely not. In fact, I 
have come to school straight right here because it's available 
to us. And because of the financial obligations and lack of 
resources, we're not able to leave our community. So by the 
grace of God we have this incredible structure that has been 
able to ride along with us in our journey, and so I was able to 
do it. Otherwise, absolutely not, no, sir.
    Chairman Tiberi. Speaking of incredible structures, Dr. 
Cardenas, you talked about the socioeconomics of the students 
that you serve, and you and I agree on a basic philosophy about 
education.
    Is there anything that you can point to to share with the 
Subcommittee that the investment pays off, meaning that the 
ability for your role as an institution serving primarily 
first-generation college students pays off for not only the 
immediate community but the state and the nation? Can you share 
with us your thoughts on that?
    Dr. Cardenas. Let me start with----
    Chairman Tiberi. Can you pull the microphone just a little 
bit closer.
    Dr. Cardenas. There it goes.
    Let me start with an anecdote. At my former Hispanic 
Serving Institution, the University of Texas-San Antonio, the 
physics department had 17 majors. We hired one young Hispanic 
assistant professor, and by the end of the academic year there 
were something like 70 physics majors. The students connected 
to this young, bright, recent Ph.D. Hispanic in physics.
    I think that it is particularly--here at the University of 
Texas-Pan American, we have a 42-year-old Hispanic female who 
graduated from Rice with a doctorate in engineering. We have a 
lot of other wonderful engineering faculty, but this young 
woman is--she is a rare commodity in engineering. Her field is 
nanotechnology. And we now have a wonderful group of young 
Hispanic female master--undergraduate and master's degrees in 
the field of engineering, who last semester won first place in 
senior design at the American Council on Mechanical 
Engineering.
    In my field, which is education, we have a greater critical 
mass of Ph.D.s, but in the sciences, both the social sciences 
and the hard sciences, investment in producing that faculty 
that can inspire and connect to those 600,000 students that Dr. 
Parades was talking about, and the about 1.6 million additional 
ones across this country, will create a dramatic impact in 
those critical areas where we need--we need a reinvention, if 
you would, of the way we do things, whether it's in engineering 
or treating diabetes or whatever.
    So I think that investment in creating that critical mass 
of master's and doctoral, particularly academics, out of the 
Hispanic community will make--will have a tremendous impact, 
because it really is--we really are going to need that faculty, 
No. 1. No. 2, it really is when one faculty member inspires 
another young student to enter the academy that we create the 
change.
    I'm going to end just really quickly with this. My son is 
25 years old, top student in a doctoral program at Berkley. 
He's going to make a great contribution to this country, but I 
believe fundamentally--and he's gone to all the best schools. I 
mean, I don't apologize for it. But I believe fundamentally 
that the kids here at UT-Pan American have an understanding of 
the world and of the problems and of the assets in this 
community that my son will never have, because they've lived it 
in a very unique way.
    So when we think about the demographics of this country, we 
need to be pulling those Ph.D. and those master's degree 
students out of these communities, because their perspective 
will be important whether they become a congressman, the CEO of 
Ford Motor Company, or a research scientist at NASA. And if you 
want to reach those students, in Texas we say, ``If you want to 
fish, you've got to go where the fish are,'' and the fish are 
at Hispanic Serving Institutions.
    Chairman Tiberi. Well, now I know what Ruben was talking 
about.
    Dr. Cardenas. I get a little passionate, Mr. Chairman.
    Chairman Tiberi. Well, with that, let me turn it over for 
questioning to our host, Mr. Hinojosa.
    Mr. Hinojosa. Thank you, Mr. Chairman.
    I wish to raise a point of personal privilege before I 
begin my questioning. I request unanimous consent to submit two 
important documents for the record of this field hearing. They 
include, No. 1, a document that is written testimony from the 
Texas Guaranteed Student Loan Corporation, regarding graduate 
student financing at HSIs and non-HSIs.
    Chairman Tiberi. Without objection.
    [The information referred to follows:]

 Statement of Sue McMillin, President & CEO, Texas Guaranteed Student 
                    Loan Corporation, Round Rock, TX

    Chairman Tiberi, Ranking Member Hinojosa, and members of the 
Subcommittee, I am Sue McMillin, President & CEO of Texas Guaranteed 
Student Loan Corporation (TG). On behalf of our board of directors and 
our management team, I am pleased to submit to you brief remarks and 
relevant data, which hopefully lend some context to today's discussions 
before the subcommittee, and specifically on the critical issue of 
graduate education opportunities at Hispanic-Serving Institutions 
(HSIs).
    TG is a public non-profit organization established by the Texas 
Legislature in 1979 to serve as the designated state guarantor for 
Texas for purposes of the Federal Family Education Loan Program 
(FFELP). We serve as one of 35 guaranty agencies in the country, which 
provide the necessary loan guarantee that ensures that all eligible 
students, regardless of economic status or racial background, receive 
the federal student loans they need to help them pay for a 
postsecondary education. We operate under an agreement with the U.S. 
Department of Education.
    The issue before the subcommittee today is relevant not only to 
Hispanic Americans who wish to pursue graduate studies at Hispanic-
Serving Institutions, but arguably also to the viability of graduate 
education opportunities for all Americans who are enrolled at these 
institutions. We appreciate the important role that HSIs have in higher 
education and in addressing the postsecondary education needs of 
Hispanics. TG commends the subcommittee for its leadership and 
foresight in addressing this area. We support the intent and objectives 
of H.R. 761, the Next Generation Hispanic-Serving Institutions Act.
    Any discussion involving expanding graduate study opportunities 
should include a review of how graduate students finance their post-
baccalaureate studies. Towards that end, we are pleased to provide the 
following overview of data relevant to students' financing of graduate 
studies, with a focus on Federal Education Loan borrowers.
    The central question is how do graduate students finance their 
educations? The answer is rather different than for undergraduates. The 
cornerstone for financing undergraduate education is the Pell Grant. A 
large, needs-tested federal grant program does not exist for graduate 
students. The questions for graduate students are whether or not to 
work and how much, whether or not to borrow and how much, and whether 
or not a graduate assistantship is available and for how much.
The National Picture
    The major factors that influence the answers to these three 
questions are the student's degree level, the student's institution 
(public or private), and the student's major program.
    Master's students are very often part-time students who work. 
Graduate students in education and Master of Business Administration 
(MBA) programs often work full-time. Furthermore, MBA and education 
master's students comprise 48% of all students seeking master's 
degrees. Graduate assistantships are also not as readily available to 
master's students (Choy & Geis, 2002). These students are very often 
financing their educations through a combination of work and loans.
    A majority of doctoral students are full-time; 58% according to 
Choy and Geis (2002), and they secure the lion's share of 
assistantships. Most assistantships are for full-time, doctoral 
students. Additionally, doctoral students in the mathematical and 
natural sciences secure the largest percentage of these assistantships. 
Funding levels are best for all doctoral students at Doctoral/Research 
Universities--Extensive (D Amico, 2000). Doctoral students with 
relatively high paying assistantships are the least likely to borrow 
large amounts to finance their educations (Choy & Geis, 2002).
    Those students seeking a first-professional degree; (e.g., M.D., 
D.O., J.D., D.D.S., M. Div., etc.) are the most likely to attend full-
time, the least likely to work, and the most likely to borrow large 
amounts of money to finance their educations. Additionally, there are 
very few opportunities for assistantships compared to other groups of 
graduate students. In recognition of this, certain first-professional 
degree students in the medical professions are allowed to borrow higher 
amounts of federal student loans than any other group of students.
    In the current climate, some have asked whether or not the high 
debt loads many new graduates carry forward from their undergraduate 
educations might deter many students from entering graduate education. 
The answers of two, national studies seem to be that it is not a 
significant factor (Heller, 2001 and Eyerman & Kim, 2000). Using 
different data sets, the studies agreed on this fact, but found 
slightly different correlations. Eyerman and Kim (2000) found that 
there was a slight positive correlation between higher borrowing and 
graduate school aspirations and attendance; whereas, Heller (2001) 
found a slight negative correlation between high amounts of borrowing 
and the likelihood of graduate school enrollment
Graduate Education in Texas
    Texas graduate students, at least doctoral students, are similar to 
those nationally. According to the Texas Higher Education Coordinating 
Board (THECB), Texas and the nation peaked in doctoral degrees awarded 
in the late 1990s and the number is now rising again. U.S. and Texas 
institutions awarded more doctorates in science and math than other 
broad disciplines in 2001--approximately 25 percent. Doctoral degrees 
awarded to women have increased and more women than men receive 
doctorates in education. However, despite the fact that Hispanics make 
up 34 percent of the Texas population compared to 13 percent 
nationally, Hispanics in Texas only received seven percent of the 
doctoral degrees awarded in 2001 compared to four percent for the U.S. 
(Texas Higher Education Coordinating Board, 2004). Also, according to 
THECB (2004), more than one-half of the doctorates awarded were from 
two non-HSIs, Texas A&M or the University of Texas--Austin.
Financing Graduate Education
    Graduate students generally have fewer options for financial aid 
than do undergraduates. Therefore, a high percentage of them borrow 
large amounts of money. According to Choy and Geis (2002), nationally 
in 2000, 53 percent of all graduate students borrowed an average of 
$16,728. The amount and likelihood of borrowing were partly due to the 
type of degree sought and type of institution attended. Students at 
private institutions borrowed more and more frequently than those at 
public institutions. Furthermore, students seeking a first-professional 
degree were most likely to borrow and to borrow more, followed by 
master's students and doctoral students respectively. Eighty percent of 
first-professional degree students borrowed an average of $22,961 at 
private institutions compared to 26 percent of doctoral students who 
borrowed an average of $10,628 at public institutions (Choy & Geis, 
2002).
    Graduate students in Texas also borrow at high levels. In general, 
Texas students borrow more as they take more hours per term--and as 
they persist in their programs toward graduation. So, at the end of 
2001, students who were then listed as less-than-half-time had a median 
borrower indebtedness (MBI) of $21,594. Students characterized as half-
time had an MBI of $24,594. Students who were characterized as full-
time had an MBI of $25,648. Students who had graduated by the end of 
2001 had am MBI of $34,471. By the end of 2004, the MBI for graduates 
and full-time students had changed very little, but for half-time 
students, it had exceeded that of full-time and graduated students. The 
MBI for less-than-half-time students had also risen by over $2,000. 
This data suggests several things. First, graduate students change 
status between part-time and full-time over their academic careers. The 
data also suggests that full-time graduate students are not having to 
borrow the increased amounts that part-time students are. Both of these 
findings are consistent with the national data.
    Graduate students at Hispanic Serving Institutions (HSIs) have a 
somewhat different profile than those at other Texas institutions. 
According to THECB (Paredes 2005) HSIs produce far higher percentages 
of Hispanic graduate degrees than non-HSI institutions. Students at 
HSIs also borrow differently than their non-HSI colleagues. Graduate 
degrees awarded to Hispanics at HSIs range from 76 percent at UT-Pan 
American to 21 percent at UT-El Paso. This compares favorably to the 
two largest producers of graduate degrees, UT-Austin and Texas A&M, who 
awarded 4.5 percent and 2.9 percent of their graduate degrees, 
respectively, to Hispanics.
    Graduate student borrowing at HSIs also differs from graduate 
student borrowing at other institutions. In 2001, the MBI at non-HSIs 
was generally higher than at HSIs. However, at non-HSIs in Texas, 
students who graduated in 2004 had an MBI only about $200 higher than 
in 2001, and students who graduated from HSIs in 2004 had an MBI nearly 
$4,000 higher than in 2001 ($30,004 compared to $26,623.) There were 
proportional increases in borrowing by every attendance category for 
HSI graduate students as well. This is distinct from non-HSI borrowers 
where the MBI decreased over $1,000 between 2001 and 2004 for full-time 
students. In only three years, MBI at HSIs reached and surpassed the 
level for non-HSI students by every attendance type except those who 
graduated that year. If this trend continues, there is no doubt that 
graduate students at HSIs will have higher MBIs than non-HSI graduate 
students in the very near future.
    Graduate students are handling repayment of their loans in an 
excellent fashion. There are no statistically significant differences 
in how Texas graduate students progress through student loan repayment. 
Former graduate students from all parts of the state--and from HSIs and 
non-HSIs--default at a rate between one percent and two percent based 
on the most recent available data. These rates were measured using TG 
estimates of the 2003 cohort default rate. This rate compares favorably 
to the overall cohort default rate for loans guaranteed by TG, which is 
6.7 percent. This should not be a surprise. Despite the fact that 
graduate student MBI was considerably higher than undergraduate MBI, 
graduate students have already achieved success by receiving their 
bachelor's degrees. In fiscal year 2004, 71 percent of defaults were by 
students characterized as freshmen at the time of default. However, 
only three percent of defaults were by students characterized as 
graduates of bachelor's degree programs (McMillion, Ramirez, & Webster, 
2004).
Conclusions
    The facts suggest that to meet the goals of Closing the Gaps, as 
Commissioner Paredes has suggested, Texas must increase graduate 
enrollment and graduation at HSIs. To accomplish this we must 
investigate whether there is sufficient aid and sufficient support for 
assistantships and fellowships at HSIs. Borrowing patterns at HSIs for 
graduate students compared to other institutions suggest a funding gap 
that is increasing, and national studies suggest that graduate students 
at public institutions borrow less when there are significant other 
sources of aid available. Those sources of aid tend to be clustered at 
doctoral extensive institutions, and no Texas HSI is classified as a 
doctoral extensive institution.
    Recent studies indicate that undergraduate borrowing is not a 
significant factor in determining whether or not students aspire to and 
enroll in graduate school. Given the increases in undergraduate median 
borrower indebtedness, and the fact that no study has been made of this 
issue with a cohort who borrowed after 1998, researchers should begin 
examining cohorts of potential graduate students who borrowed after 
2001.
References
Choy, Susan & Geis, Sonya. 2002. Student Financing of Graduate and 
        First-Professional Education, 1999 2000, Profiles of Students 
        in Selected Degree Programs and Their Use of Assistantships, 
        NCES 2002 166. U.S. Department of Education. National Center 
        for Education Statistics. Project Officer: Andrew G. Malizio. 
        Washington, DC
Eyerman, Therese & Kim, Dongbin. 2000. Comparisons of Undergraduate 
        Borrowing and Its affects on Graduate School Aspirations and 
        Graduate School Attendance. ERIC document ED 449 745.
Heller, Donald. 2001. Debts and Decisions: Student Loans and Their 
        Relationship to Graduate School and Career Choice, New Agenda 
        Series [TM], vol. 3, 4. Lumina Foundation for Education. 
        Indianapolis, Indiana.
Kojaku, Lawrence. 2000. Financial Aid Profile of Graduate Students in 
        Science and Engineering, Working Paper No. 2000-11U.S. 
        Department of Education. National Center for Education 
        Statistics. Project Officer, Dennis Carroll. Washington, DC.
McMillion, Robin., Ramirez, Jason., & Webster, Jeff. 2005. State of 
        Student Aid and Higher Education in Texas. Texas Guaranteed 
        Student Loan Corporation. Round Rock, Texas.
Paredes, Raymund. 2005. Written Testimony of Raymund A. Paredes, Texas 
        Commissioner of Higher Education For the Subcommittee on Select 
        Education of the Committee on Education and the Workforce of 
        the Congress of the United States. Edinburg, Texas.
Texas Higher Education Coordinating Board. 2004. Doctoral Education In 
        Texas, Part 1: Past Trends And Critical Issues. Austin, Texas. 
        (http://www.thecb.state.tx.us/UHRI)
                                 ______
                                 
    Mr. Hinojosa. The second is a list of HSIs identified by 
the College Board and the Hispanic Association of Colleges and 
Universities that offer postgraduate and first professional 
degrees.
    Chairman Tiberi. Without objection. Thank you.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0913.001
    
    Mr. Hinojosa. I'd like to ask my--first make a statement 
and then ask a question of Dr. Tomas Arciniega.
    Dr. Arciniega, I know that you have been involved with the 
California higher education system for many years now. Briefly 
would you please give us a brief overview of how the fiscal and 
policy support has evolved in your state since you started----
    Mr. Hinojosa. Sorry. I turned this one off, but I forgot 
this other one. Let me start my question again.
    Would you please give us a brief overview of how the fiscal 
and policy support has evolved in your state since you started, 
the changes that have occurred, and your current assessment of 
progress for HSIs in the California state system.
    Dr. Arciniega. Thank you very much for the question. Giving 
you a complete answer to that would take us till about the 
middle of next week, but let me respond this way. I think that 
California, along with all of the Southwestern states that I 
know of, has been plagued by the ups and downs, mostly downs in 
the last decade, in the available funding compared to the 
growing need in higher education, and specifically in 4-year 
undergraduate as well as graduate and in the community college 
educational ranks of students.
    The reality is that the needs have just quadrupled and 
expanded so dramatically that there was no way that the 
diminishing resources, with the problems of state funding and 
budgeting issues, was going to keep pace with the demand.
    In a nutshell, what has happened is that--you know, 
California has had a very proud history. It was--you know, one 
of the main reasons I moved to California from Texas was 
basically the California master plan for higher education. It 
was, at the time, way ahead of its time in guaranteeing a 
college education to every eligible student, regardless of 
background or geographical location, et cetera. And that proud 
history continued until we got into the major budget crunches 
that we've been into for particularly the last 2 years.
    And the net effect has been that for the first time 
California has had to go back on its promise to every student 
that made good on the commitment to prepare themselves and make 
themselves eligible to attend the state universities in the 
University of California system and the community colleges in 
California. For the first time, we've had to turn away students 
simply because of the lack of adequate funding.
    Mr. Hinojosa. If you will yield----
    Dr. Arciniega. So basically that's the most significant 
problem situation, and it has affected and will be a major 
issue that will continue to snowball as we move into the next 
decade.
    Mr. Hinojosa. That response justifies the reason that I 
used 125 million in the reauthorization level to get started. 
And probably by the next reauthorization I will be asking for 
250,000 new reauthorization level, simply because there are so 
many students all over the--all over the country, but 
particularly in states such as California, Texas, Florida, and 
others.
    So I thank you for that explanation, and I will come back 
in the second round and ask you another question.
    Dr. Rivera from Puerto Rico, your initial Title V HSI grant 
really helped you develop curricular offerings at the 
undergraduate level. Do you anticipate similar effects for your 
graduate program should my legislative proposal be adopted by 
Congress.
    Dr. Rivera. Definitely, because, first of all, the 
foundation has been laid. Those students--as a result of these 
projects, we have added undergraduate research as a requirement 
for every major at the university, and we've added now a 
requirement of statistics, applied statistics, in every major 
in every school in the university. Again, we're focusing on 
preparing our students for graduate education and we're making 
that a motto; you know, a statement that we make in every 
speech. Every time we meet with the students, we tell them, 
``You're going to go to graduate school. That's why we're 
forcing you to take statistics and undergraduate research 
courses.''
    So definitely what we have received from Title V has laid 
that foundation. So the process of now developing new master's 
degree programs and professional degree programs, and at some 
point in time doctoral programs, is also going to be the 
essence of the use of those resources.
    Mr. Hinojosa. Well, I agree with you, but you pointed out 
toward the end of your presentation that you were also 
concerned about the gap that would occur if we don't hurry up 
and pass this reauthorization this year, because there is a one 
or 2-year gap that wouldn't be filled if you break the work in 
the service that had been done.
    I would like to ask the Chairman, can you think of some way 
in which we can give those HSIs that are facing this gap--if we 
wait until 2006 to finish the reauthorization, what relief can 
we give them.
    Chairman Tiberi. Well, my immediate thought is maybe 
talking to Chairman Ralph Regula of the Education 
Appropriations Subcommittee, and talking to Chairman Boehner if 
there's any other vehicles that are moving the language in, but 
that's something that we should definitely pursue this week 
with both of those individuals.
    Mr. Hinojosa. Well, I appreciate that you've come up with 
that suggestion that you and I meet with Chairman Regula, but I 
think that I would like to ask the staff to highlight that 
concern that was expressed, because we don't want to leave--I 
don't know how many colleges or HSIs are in that situation, but 
we've got to address it as soon as we get back.
    Dr. Rivera. I would say probably about 200, close to 200 
institutions.
    Mr. Hinojosa. Well, that's what we have, but not all of 
them will have the end of their four or 5-year period that they 
have that designation.
    Dr. Rivera. It will be a very large number, because this is 
the year when the cycle started the second time, which was the 
peak of that.
    Mr. Hinojosa. I see.
    Dr. Rivera. Again, you know, we're not talking about 
authorizing more money----
    Chairman Tiberi. Right. The challenge is to find----
    Dr. Rivera.--but just allowing the institutions to 
participate and also be competitive----
    Chairman Tiberi. Right. Now----
    Mr. Hinojosa. It's just like when we have a concurrent 
resolution to keep government funding to keep working. So thank 
you for bringing that up to our attention.
    Chairman Tiberi. Great intention. The key is to find 
something that will actually move past the House and past the 
Senate to the President's desk, and that's why I was thinking 
an appropriations bill, because that would definitely--that has 
to get to the President's desk. It's something that we'll work 
with.
    Mr. Hinojosa. We'll work with you and Dr. Flores and see if 
we can give you-all some relief.
    Dr. Rivera. Thank you.
    Mr. Hinojosa. I'd like to move on quickly to the next 
presenter, Dr. Parades.
    And I want to say thank you for your very clear 
presentation regarding Hispanics at the graduate level. I 
listened attentively to every one of the presenters, and I had 
just one word after the last one, in saying that, wow, what 
powerful presentations each and every one of you made this 
afternoon.
    I can tell you that last Congress we heard from your board 
that, while you had laudable goals, Hispanic enrollment at the 
undergraduate level was way behind. And that concerns me, 
because here we are trying to move us to the next step, 
master's and Ph.D.s, when we have so many that have not earned 
their bachelor's. And so we have a very difficult--a very 
difficult hurdle to get over, and that is to continue 
graduating more with bachelors, and still address this acute 
shortage of master's and Ph.D.s.
    Now the postgraduate picture appears just as troublesome. 
My Federal legislation will alleviate some of the problem, but 
how will the State of Texas seriously implement plans to 
overcome the obstacles and close the gap that you pointed out 
to us.
    Dr. Paredes. Well, there's several ways that the State is 
trying to deal with these issues. First of all, we just adopted 
an accountability system in Texas for higher education. 
Governor Perry required the Texas Higher Education Coordinating 
Board to develop an accountability system during the past 
calendar year, 2004. With the strong cooperation of 
representatives of different campuses, we did actually put an 
accountability system in place.
    We'll now be able to monitor very closely graduation rates 
at every institution. We'll be able to monitor data such as the 
number of students that go from undergraduate programs to 
graduate programs, and we'll be able to monitor the ethnic 
composition of student performance, or take ethnic composition 
into consideration in monitoring student performance.
    So we'll have much clearer data on the way higher education 
institutions are performing, and that will allow us to develop 
interventions as appropriate.
    We are now in the process of trying to call more attention 
to developmental education. We know that students and high 
school graduates in Texas are often not well prepared to do 
rigorous college work, so we're working with the K through 12 
sector to improve that situation. We're encouraging 
institutions of higher education to work more closely with K 
through 12 in vertical teams to deal with this issue.
    We've been placing a lot of attention on graduation rates. 
President Cardenas and President Garcia know that we've been 
talking a lot about this at the Coordinating Board.
    So we're trying to get more students to graduate with 
baccalaureate degrees. And we're not only trying to get more 
students to graduate, but we're trying to improve the quality 
of academic performance that they have when they graduate so 
that they will be well prepared to undertake rigorous graduate 
programs in either the master's, the doctoral, or the 
professional degree levels.
    Mr. Hinojosa. Dr. Paredes, with all due respect to you and 
your position, your title, what I'm going to say, take it from 
someone who is doing it very respectfully. The figures that you 
gave are shameful, for the State of Texas to have a 4-1/2 
percent versus 68 percent of non-Hispanics getting postgraduate 
degrees. 4-1/2 to 68 doesn't require any more study of 
accountability. There's a humongous gap that has to be filled, 
and it can be done with resources.
    And the state legislature, the Board of Regents, the board 
of--the Coordinating Board, everybody, like you and me, who are 
in positions to make a difference, are just going to have to 
speak up and say that we are sick and tired of waiting and 
studying the problem when we know it's 4-1/2 versus 68.
    All it takes is what they did here in the Rio Grande Valley 
the last 8 years; increase the funding from the Federal 
Government and the state government to be able to bring the 
unemployment from 21 percent down to 8-1/2 percent, increase 
the investment in human capital for job training 218 percent, 
increase the amount of money for our public schools in the 
GEAR-UP program, as we did the last 5 years.
    It doesn't require a scientist to figure it out and stop 
studying, because all that does is take more time and more time 
and keep us in the same huge gap.
    I think that folks like you and I are going to have to 
simply speak up and say, ``Enough is enough, and let's invest 
Federal funds and state funds.'' You do yours and I'll do mine, 
because the Chairman is hearing it from the pros. California 
has 90 some HSI--80 HSIs, twice more than the State of Texas.
    No question about it, shameful that we have these 
statistics to put into the record. And I just hope that every 
one of my Congressmen colleagues will read these reports so 
that they will pay attention to the Chairman and to me, that we 
need to just get those appropriations built up again, instead 
of accepting the 2006 proposals for the budget.
    With that, Mr. Chairman, I'm going to yield and wait for 
the second round, because I think I could keep talking, and I 
don't want to be disrespectful.
    Chairman Tiberi. Dr. Cardenas, what, in your mind, from 
your expertise, what disciplines do you see show the highest 
needs for Hispanic Americans with respect to graduate studies.
    Dr. Cardenas. It's very difficult to--we need them across 
the board. Education faculty can really impact the preparation 
of teachers, which gets at that K-12 need that Commissioner 
Parades was talking about.
    There are fields in which we have very marked scarcities, 
and most of those happen to be in the hard sciences, although 
we have scarcities really--there's no discipline in which we 
cannot point to a scarcity.
    We know that problem-solving, research, the development of 
knowledge, the generation of new ways of doing things, will 
come out of interdisciplinary work. That is: the psychologists 
working with the computer scientist, working with the engineer, 
to attack a biochemical problem. I mean, that we know.
    So it's--as I said, the scarcities are across the board, 
but if we are going to inspire those young Hispanic students to 
go into those fields, I would say that a major investment in 
the hard sciences would be very much in order.
    Chairman Tiberi. Thank you; thank you.
    Ms. Chapa.
    Ms. Chapa. Yes, sir.
    Chairman Tiberi. What percentage of your peers that you 
have gone to school with at the undergraduate level and the 
graduate level would you say work and attend college.
    Ms. Chapa. Everyone that I know works, sir.
    Chairman Tiberi. All of them.
    Ms. Chapa. Yes, sir.
    Chairman Tiberi. I figured that.
    Ms. Chapa. All throughout, yes, sir.
    Chairman Tiberi. Me, too. It's been awhile since I went to 
college, but when I was in college--and I worked through 
college and paid my way through college--one of the things that 
was happening on the campus, and maybe it was just the time, at 
that time, students, both working-class--students from working-
class backgrounds and students from nonworking-class 
backgrounds--what I mean by that is their parents paid their 
way--and less so them, but there were some of them, as well, at 
least at Ohio State, and maybe this was just a phenomenon in 
Ohio at the time, but one of the things that I'm trying to ask 
you, if this makes any sense, is there any talk among students, 
at least when you've been in school at the undergraduate and 
graduate level, as to why is it so expensive, why college 
tuition is so expensive; you know, why maybe it's more at one 
institution than another institution? Do those discussions take 
place anymore.
    Ms. Chapa. They do. They do, and as Dr. Cardenas has 
pointed out, this is one of the--how should I put it?--lower-
priced universities.
    The biggest problem is our geographical area. This is an 
area where low wages are very, very common. So during your 
bachelor's degree plan, most of us worked minimum wage jobs, 
and so you add--you factor that in, and that makes that very 
difficult.
    And of course at the MBA level it's the same, and at the 
doctoral level, well, of course it gets worse. But definitely 
it's the demographics. And we're all aware of that, and yet we 
still--you know, every time we get the bill, it's like, ``Oh, 
my God, this is so much.'' But we realize that it's really not, 
in comparison to other places.
    Chairman Tiberi. Thank you.
    Ms. Chapa. You're welcome, sir.
    Chairman Tiberi. Dr. Parades, one of the issues that came 
up during debate last year in the Higher Ed Subcommittee, 
Chairman McKeon Chaired--and continues to Chair, Buck McKeon 
from California--is the relationships, the relationship between 
the cost of higher education today versus 20 years ago, and 
how, at least through testimony, the cost has increased higher 
than the rate of inflation.
    From where you sit, particularly for students who are 
economically disadvantaged, the first in their family to have 
an opportunity to go to college, what do you say to them in 
terms, more of the global perspective, of how we try to balance 
the cost of educating a student versus allowing that student 
who's sitting to the right of you to try to get a quality 
education? Do you struggle with that.
    Dr. Paredes. Well, we struggle with it all the time, 
Congressman. First of all, we tell students that we're doing 
all we can to increase student financial support in Texas 
through state means.
    The legislature right now is in session, and it is 
struggling with how it can increase student financial aid in a 
tight budget situation. I haven't encountered any member of the 
state legislature who isn't committed to try to find ways to do 
that. That means increasing outright to grant money, it means 
increasing loans, including the zero interest forgivable loans. 
It means increasing the student work study support.
    I also tell students that even if you have to take out a 
student loan--for example, here in Texas we have something 
called a Beyond Time loan program that is a forgivable loan 
under certain conditions, but in the worst possible scenario 
it's a zero interest loan. And I tell students that even if 
they have to take out loans, that the benefits down the road in 
terms of their ability to earn over the life of their careers 
makes it worthwhile.
    I think clearly one of the things we have to do in Texas is 
we have to help student do the best job possible with financial 
planning. We know, for example, here in Texas, and this is the 
case around the country, that students sometimes drop out of 
college in order to earn income when in fact it would be in 
their best financial interest to take out a loan and stay in 
school, because of a lot of different considerations. And by 
the way you're nodding your head I can tell you understand what 
I'm saying.
    So we have to encourage students to stay in school and get 
finished as quickly as possible.
    We are constantly talking to leaders around the state about 
the urgent need to increase the number of college graduates. We 
call particular attention to the issue we're addressing today, 
the role of Hispanics in higher education, not only in Texas 
but around the country, and point out that if we don't increase 
these numbers significantly that the consequences, the dire 
consequences, will apply to everybody, not just Hispanics, that 
everybody in Texas will suffer a loss of economic well-being, 
everybody in Texas will suffer in terms of quality of life 
issues.
    And so we're making it very clear all over the state that 
it's in everybody's self-interest to promote educational 
achievement broadly, and Latino education achievement in 
particular.
    Chairman Tiberi. Thank you.
    Dr. Rivera, in your written testimony you talk about 
academic and cultural agreements that you have signed with 
other institutions, both in the United States and Europe.
    Dr. Rivera. Yes.
    Chairman Tiberi. Can you talk about how that benefits the 
graduate students at your institution.
    Dr. Rivera. Well, right now for example we have made a 
special agreement with the University of Navarra and Coro 
Europeo, which is a European project for graduate students in 
business, so that our students will be able to go over there 
and experience one of the most exciting events in this century 
by the fact that all of those countries that were killing each 
other just 50 years ago now have a common currency and common 
constitution and more and more commonalities, but still hold 
onto their diversity and cultures and languages and many 
things.
    So one of the things we want our students to do is to be 
able to spend time taking some courses there and studying that 
whole interaction; the same thing we're doing with a program in 
Valencia with script writers. Again, communications for 
Hispanics is very important, and we have one of the few 
programs, as a Hispanic Serving Institution, I think perhaps 
one of the few that has just created a master's in script 
writing. If you don't have a script, you don't have a film, you 
don't have a documentary, you don't have an educational 
product. So they have one of the strongest in all of Europe and 
we've partnered with them to bring some of their resources to 
Puerto Rico, with the help of a state agency.
    But, again, that is a minute program, because most of our 
students cannot afford to take those opportunities unless they 
have some sort of support.
    Chairman Tiberi. Do you have any agreements with Ohio State 
yet.
    Dr. Rivera. We haven't, but we would be happy to do one.
    Chairman Tiberi. Let's talk afterwards (laughter).
    Dr. Arciniega, you mentioned in your written testimony that 
HSIs frequently lack infrastructure necessary to develop 
graduate programs.
    Other than dollars, in Mr. Hinojosa's bill, what else is 
there in terms of the obstacles that you see.
    Dr. Arciniega. Well, I summarized them. One, for example, 
is removing the 50 percent low income assurance requirement 
from the Federal definition of HSIs. That would erase another 
inequitable component of that Title V definition of HSIs.
    The current law requires that at least 25 percent of the 
full-time equivalent student enrollments must be Hispanic, and 
50 percent of those students must also fit Federal low income 
definitions. This is an additional regulatory burden requiring 
time-consuming documentation that's not normally gathered, and 
it's not required of other minority serving institutions, and 
it really flatly needs to be eliminated. That's a major issue.
    And then you've already heard from my colleague here the 
importance of eliminating the 2-year wait-out period between 
application for grants. That's critical.
    Then there's a request from--that you've had documented a 
number of different ways to add a new use for Title V of 
undergraduate grants by allowing the funding of articulation 
agreements and student support programs to facilitate the 
transfer of students from 2-year to the 4-year institutions. 
That's critical, and that's in the request that we've made.
    Mr. Hinojosa. Would the gentleman yield? Mr. Chairman, as a 
point of clarification, I wish to say that my bill eliminates 
those hurdles, including the 2-year wait-out period, and much 
of the leadership on both sides of the aisle have agreed to 
eliminating them, because there is no other group, either in 
historically black colleges and universities, or any other, 
that has those kinds of requirements as they placed on HSIs. So 
I do want to clarify that.
    Dr. Arciniega. Yes.
    Mr. Hinojosa. The problem is that the 2-year wait-out 
period is one that Dr. Rivera brought out, and I think I want 
to go with the recommendation of the Chairman that he and I go 
visit with the Appropriations Subcommittee Chairman, Regula, 
and see if we can give you-all some support.
    Chairman Tiberi. Yeah. Just to add a bit, there was an 
attempted remedy at the--the data that you talked about, 
reducing that, so I don't think that fight is over yet, but 
it's something that the Committee has tried to work on and I 
think you'll see us continue to make an effort to omit it, or 
at least reduce it.
    Mr. Hinojosa.
    Mr. Hinojosa. Thank you, Mr. Chairman. I want to say that 
it's a pleasure to work with you and to see that you understand 
very clearly the points that these individuals, these 
presenters, have stated today, and so in an effort to move it 
and bring it to a close soon, I want to ask Dr. Cardenas a 
question.
    Dr. Cardenas, you've served as a personal mentor for many 
individuals, and you speak of it as a natural occurrence. 
However, the hiring of Hispanics throughout the Nation in 
higher education institutions is extremely low if you factor 
out HSIs. What can be done to accelerate this hiring 
nationally, both within HSI institutions of higher learning and 
non-HSI institutions of higher learning.
    Dr. Cardenas. Well, we're going to have to get them down to 
South Texas and show them it doesn't hurt.
    (Laughter)
    The fact of the matter is that, one, we need to increase 
the numbers. We are--it is a competitive market for high 
quality Latino faculty. In some fields it is very competitive.
    I came to this position in August after serving as dean, 
and as dean I did the hiring, and it was a tough negotiation. 
More prestigious and more financially able institutions can 
logically compete more for those faculty. They may not always 
want to, but they can.
    I want to make one point about the relationship between the 
current provisions of your bill and that issue. In Texas, all 
institutions are funded under the same formula. The University 
of Texas at Austin is funded under the same formula as we are.
    Why do they have so much more money than we do? They have 
much more money than we do because the formula allocates a 
certain amount per credit hour based on the discipline. So if I 
get a dollar for a history freshman credit hour, I get nine 
dollars for a biology freshman credit hour, but I might get 
three dollars--and I don't remember what the numbers are; Dr. 
Parades does--but I might get three dollars for a junior level 
history class.
    Chairman Tiberi. This is like Medicare reimbursement.
    Dr. Cardenas. Yeah, it is.
    Dr. Paredes. Worse.
    Dr. Cardenas. But the point is this: we have only two full-
fledged doctoral programs. Now, the reimbursement on a doctoral 
program in education is about--what is it? Well, let me put it 
this way.
    Dr. Paredes. 16.
    Dr. Cardenas. It's 16 dollars, OK. Reimbursement on a 
biology Ph.D. is 27. The University of Texas at Austin has over 
200 Ph.D. programs.
    Ray, is it over 200?
    Dr. Paredes. No, I don't think it's that many. It's----
    Dr. Cardenas. 150. I'll give them that much. So the money 
that's coming in from the State is substantially higher, 
because their emphasis is that the junior--at the graduate 
level.
    Because we're still struggling at the undergraduate level, 
we're still struggling with retention from freshman to 
sophomore year, our margin of return from the formula is always 
significantly lower than other institutions. And most HSIs are 
in a similar situation. So we don't have the wherewithal to 
invest in the graduate programs, we don't have the wherewithal 
to compete for those faculty, and we don't have the wherewithal 
to build the new programs that would allow us then to compete 
for that money.
    And we also find it much more difficult to compete for the 
other Federal money that comes into an institution that is the 
research dollars.
    So the answer, Congressman Hinojosa, that you have proposed 
in terms of providing institutional support as well as 
individual support is very powerful. We will be able to 
significantly advance the development of infrastructure to 
prepare those faculty and to prepare those master students 
through this bill, if you get enough money authorized, but I 
don't think you ought to tell them what you're going to ask 
them for the second time.
    Mr. Hinojosa. You're right about the second time. But on 
the first one, I think that we're on the right track, because 
there are four senators who have already pledged their support 
for that number, because they realize that the number of HSI 
institutions, the number of students and the potential is so 
great that it wouldn't be reasonable to just give us some 
crumbs of 25 or 50 million for an authorization level just to 
get this law in the books and to become a national policy. We 
really need to address it full force, and really then go to the 
appropriators and get the money that is necessary.
    Yes.
    Dr. Arciniega. In that connection, let me make a special 
plea for one very important piece of this. I say this as a long 
time president in the state university ranks. It's the pipeline 
issue, and Blandie mentioned it. One of the--if I were to, you 
know, hone in on first things first, as we look to the future, 
one of the most dramatically obvious issues to us that are 
working in these vineyards is, you know, the lack of ethnic 
minority faculties, specifically Hispanic faculty, that--and 
what a difference it makes when you do, you know, when you are 
able to identify and bring into the ranks at your institution, 
and the immediate impact it has with the students that you have 
coming to your institution.
    And if I were to--if I were asked the question, ``What 
would be the top priorities in that arena,'' I would say math, 
science, engineering, teacher education.
    How do we dramatically increase in geometric proportions 
the number of Latino faculty, faculties, in those key 
disciplines? It would make just an incredible difference almost 
in one decade.
    Chairman Tiberi. Isn't the challenge, though, across the 
country.
    Dr. Arciniega. Yes.
    Chairman Tiberi. Not just for Latinos----
    Dr. Arciniega. Absolutely.
    Chairman Tiberi.--but just for any Americans to go into the 
math and science discipline.
    Dr. Cardenas. Yes.
    Chairman Tiberi. Because at Ohio State I know they have 
struggled with getting professors who speak English who aren't 
from either India or China. How do we get there.
    Dr. Arciniega. The answer to your question is ``Yes, but. . 
.'' And the triple underscored ``but'' has to do with the 
magnitude of the tremendous difference.
    You can point to, yeah, the problems that we have in 
getting, you know, faculties, period, in those areas, yes.
    But when you take a look at that in relation to the 
problems of HSIs----
    Chairman Tiberi. So how do you get there?
    Dr. Arciniega. How do you get there? There are a number of 
model programs out there. You've got to fund them.
    They've got to be identified. You've got to focus spotlight 
attention on them, and you've got to support that, and it has 
to be a combination of state, Federal, and I would say private 
sector support.
    One of the most obvious successful models that we have in 
the country in that regard that starts at the first part of the 
pipeline at the undergraduate level is the math, engineering, 
and science achievement, known as the MESA programs across the 
country. You now have them in, I think, three or four of the 
southwestern states, and that's--you know, the success of that 
program has been proven. But you have to build from there to 
the pipeline issue at the undergraduate and then at the faculty 
ranks.
    Mr. Hinojosa. Excuse me, reclaiming my time, I want to say 
that a month ago the Chairman of the Higher Education 
Subcommittee, Buck McKeon, was asking that question, ``How do 
we get there?'' And he invited five other Members of Congress 
on that Committee to go visit seven universities in China, and 
we visited in Beijing and in Shanghai, and the answer to that 
question was that they had these incubators, like I had never 
seen before. I mean, they're talking about--the one in Shanghai 
was 180 million dollar investment, where they had 150 
corporations in and around that industrial park, and they were 
the biggest contributor to the collaborative effort that was 
being made so that they could produce the engineers and the 
results that they want to be competitive globally.
    And what was also interesting was that a big part of that 
was research; that all these companies were putting into the 
till to be sure that there was enough money to be able to bring 
in somebody, with the idea that instead of having 12 major 
components to build an automobile, that they could do it with 
only four components, much faster and more effectively and so 
forth. It was all researched. And what's interesting was that 
they had Chinese, Taiwanese and other groups of the Pacific Rim 
countries.
    All of this to say that corporate America is not investing 
either in the K-12 programs, nor in the higher institutions of 
what we're talking about here, in the sufficient amount that 
they could. And just think about the trillions of dollars that 
they're getting in tax cuts here under this last President 
Bush's Administration.
    And so I think that we need to be thinking about how they 
open up the faucets and put them into this type of work that 
you're talking--all of you are talking about.
    Dr. Paredes. I agree.
    Mr. Hinojosa. Chairman, I'm sorry that I took a little bit 
longer, but I wanted to share that with you because we are 
facing a giant competitor in China, but they are investing in 
what we're talking about here, higher education.
    Dr. Rivera. May----
    Chairman Tiberi. It's his time.
    Mr. Hinojosa. I'm going to give you just 30 seconds to 
respond, Dr. Rivera.
    Dr. Rivera. Then I'm just going to say three letters, NSF. 
Non-Hispanics set aside no particular efforts to award research 
in our types of institutions.
    You've mentioned it ten times: Research, research, 
research, research. That's what graduate education is all 
about. We get crumbs.
    Mr. Hinojosa. I think that could be turned around if 
several of us in the Committee were to recommend that a couple 
of presidents of HSIs could be named to the board of directors 
of the National Science Foundation.
    Chairman Tiberi. I think you have one in mind in 
particular.
    Mr. Hinojosa. I do, and I'll bet you have the other one.
    We definitely are shy, not only on that board but on 
corporate boards so that those individuals could tell their 
boards of directors that they have to invest in higher 
education and research so that we can compete with the other 
global competitors.
    So with that, Mr. Chairman, I yield back the balance of my 
time.
    Chairman Tiberi. Thank you.
    In closing, let me just share with the three of you 
panelists from Texas, about a year ago the Ohio delegation of 
Democrats and Republicans were brought together by the higher 
education community and we were told that we weren't doing as 
good a job as the Texas delegation was in getting research 
dollars back to their home state.
    So you may not be doing as well as you think, but you're 
doing better than many others are doing. So my hat's off to 
you.
    This is an ongoing process. I can't tell you how much I've 
learned today. I'd like to thank the staff, both my staff, the 
Committee staff, Mr. Hinojosa's staff, for coming today. Dr. 
Cardenas----
    Mr. Hinojosa. Cardenas.
    Chairman Tiberi. Cardenas, thank you. Thank you for your 
hospitality, your time, your staff's time, this facility, all 
the witnesses. It has been fabulous. It really has been 
fabulous.
    Final thoughts.
    Mr. Hinojosa. I repeat everything that you said. I agree 
with it. The hospitality has been wonderful, the attendance has 
been very good, and I have learned a great deal more today by 
just listening to everything that you-all have said, and 
pointing out the concerns and giving us recommendations that we 
can take back to the Committee, the whole of which, as you 
know, is made up of 55 Members of Congress representing 
different regions of the country with different makeup of 
constituents, and everyone trying, of course, to represent them 
as best as they can.
    But thank goodness that they have--that they have listened 
to some of the recommendations that I have brought from South 
Texas, and with the help now of our Chairman, I think that it's 
going to raise this to a higher level and that we will be 
successful in getting this legislation passed.
    And last, Mr. Chairman, the issue that you had in the field 
hearing in Ohio State University of international studies is 
one that is of great interest to us in the Latino community, 
and I bring that up because I learned that Ohio State 
University produces many, many graduates that go on to serve in 
the Federal Government in the State Department all over the 
world. They went and brought from the University of Texas in 
Austin a professor, a Hispanic professor, to help them on this 
program, and they have one of the most successful Latino--
schools of Latino studies, international studies, in that 
university, with 60,000 total student enrollment, and that one 
department is getting about 10 million from Title IV funding 
available for international studies.
    And if I were to ask Dr. Cardenas how much we're getting 
from Title IV, I think it would be quite low compared to Ohio 
State. So we're going to invite Ohio State to become partners 
with us and other HSIs in Texas so that we can introduce that 
career path and opportunity to our bilingual students who 
already have command of two languages. And that's what is 
required in that particular program, except that they go beyond 
that. Most of them have three to five languages that they 
master.
    Dr. Cardenas. We would be delighted to partner and to 
welcome both of you back when we receive our first two million 
in about 2 years.
    Mr. Hinojosa. Good. Thank you, Mr. Chairman.
    Chairman Tiberi. Thank you, Mr. Hinojosa. Thank you very 
much for inviting me down to your district. I really have 
learned a lot from all of you, and I really appreciate your 
willingness to help educate me. He doesn't need as much 
education. He's educating us every day in Washington, but thank 
you so much.
    If there is no further business before the Subcommittee, 
the Subcommittee stands adjourned.
    [Whereupon, the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
